<html>
<title> - NO CHILD LEFT BEHIND'S EDUCATION CHOICE PROVISIONS: ARE STATES AND SCHOOL DISTRICTS GIVING PARENTS THE INFORMATION THEY NEED?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
  NO CHILD LEFT BEHIND'S EDUCATION CHOICE PROVISIONS: ARE STATES AND 
      SCHOOL DISTRICTS GIVING PARENTS THE INFORMATION THEY NEED?

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

              October 20, 2003 in Taylors, South Carolina

                               __________

                           Serial No. 108-38

                               __________

  Printed for the use of the Committee on Education and the Workforce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

90-143              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Susan A. Davis, California
James C. Greenwood, Pennsylvania     Danny K. Davis, Illinois
Fred Upton, Michigan                 Ed Case, Hawaii
Vernon J. Ehlers, Michigan           Raul M. Grijalva, Arizona
Jim DeMint, South Carolina           Ron Kind, Wisconsin
Judy Biggert, Illinois               Dennis J. Kucinich, Ohio
Todd Russell Platts, Pennsylvania    Chris Van Hollen, Maryland
Ric Keller, Florida                  Denise L. Majette, Georgia
Joe Wilson, South Carolina           George Miller, California, ex 
Marilyn N. Musgrave, Colorado            officio
John A. Boehner, Ohio, ex officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 20, 2003.................................     1

Statement of Members:
    Carter, Hon. John R., a Representative in Congress from the 
      State of Texas.............................................     3
    DeMint, Hon. Jim, a Representative in Congress from the State 
      of South Carolina..........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Harner, Dr. William, Superintendent, Greenville County School 
      District...................................................    22
        Prepared statement of....................................    24
    Jeffrey, Dr. Dana, Vice President of Strategic Sales, 
      Lightspan..................................................    29
        Prepared statement of....................................    31
    Rees, Nina S., Deputy Under Secretary, Office of Innovation 
      and Improvement, U.S. Department of Education..............     5
        Prepared statement of....................................     7
    Rushing-Jones, Wanda, Coordinator, Federal Programs Unit, 
      South Carolina Department of Education.....................    15
        Prepared statement of....................................    18
    Waggoner, George, Parent and Retired Tech Sergeant (E6), U.S. 
      Air Force..................................................    27
        Prepared statement of....................................    28

Additional materials supplied:
    Owings, Dr. Darryl F., Superintendent, Spartanburg County 
      School District Six, Spartanburg, South Carolina, letter 
      submitted for the record...................................    41
    Saylors, Charles J., on behalf of the South Carolina PTA and 
      the National PTA, statement submitted for the record.......    42


  NO CHILD LEFT BEHIND'S EDUCATION CHOICE PROVISIONS: ARE STATES AND 
       SCHOOL DISTRICTS GIVING PARENTS THE INFORMATION THEY NEED?

                              ----------                              


                        Monday, October 20, 2003

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                        Taylors, South Carolina

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:15 a.m., in 
the Brushy Creek Elementary School, Taylors, South Carolina, 
Hon. Jim DeMint presiding.
    Present: Representatives DeMint and Carter.
    Staff Present: Amanda Farris, Professional Staff Member.
    Mr. DeMint. A quorum being present, the Subcommittee on 
Education Reform of the Committee on Education and the 
Workforce will come to order.
    We are meeting here today to hear testimony on No Child 
Left Behind's Education Choice Provisions: Are states and 
school districts giving parents the information they need? I am 
eager to hear from our witnesses, but before I begin, I ask for 
unanimous consent for the hearing record to remain open 14 days 
to allow Members' statements and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record. Without objection, so ordered.

STATEMENT OF HON. JIM DeMINT, A REPRESENTATIVE IN CONGRESS FROM 
                  THE STATE OF SOUTH CAROLINA

    Good morning, everyone. I do appreciate everyone being 
here. It is a privilege to be back in my own district reviewing 
some key aspects of education in the No Child Left Behind Act.
    I would like to take this opportunity to thank Congressman 
Carter who has come all the way from Texas to be here in South 
Carolina in order to make this hearing possible. Mr. Carter, I 
appreciate your willingness to join me in reviewing this very 
important issue for our children across America.
    I would also like to thank everyone at Brushy Creek 
Elementary for opening up their fine school to us today. I 
would especially like to thank Principal Sandra Monts for all 
of her hard work.
    We are here today to discuss the issue of how public school 
choice and supplemental education service provisions in the No 
Child Left Behind Act are being implemented at the state and 
local level.
    As many of you know, the No Child Left Behind Act is a 
landmark piece of legislation that seeks to ensure that all 
children learn. To do this it requires annual testing of public 
school students in reading and math in grades three through 
eight, report cards for parents on school achievement levels, 
improved teacher quality requirements that ensure all students 
are being taught by a qualified teacher and public school 
choice and supplemental service options for parents with 
children in underachieving schools.
    I am confident No Child Left Behind will help close the 
achievement gap that exists in America between disadvantaged 
students and their more affluent peers.
    One of the key elements in the No Child Left Behind Act 
centers around giving parents information about the quality of 
their children's education, and then empowering those parents 
to make decisions about that education.
    Although education choice and supplemental services were 
supposed to be fully implemented at the beginning of 2002 and 
2003 school year, the U.S. Department of Education's review of 
implementation over the last year indicated that compliance has 
been sporadic.
    It appears as though some school districts did not offer 
education choice or supplemental services to all students who 
were eligible. Some did not offer sufficient choices to 
eligible students. Others did not fund educational choice-
related transportation and supplemental educational services at 
the level required under the Act.
    I understand the confusion that some states and school 
districts have about the implementation of some of the choice 
provisions in No Child Left Behind. I want to assure you that 
I, along with other Members of the House Education and 
Workforce Committee, am working closely with the U.S. 
Department of Education to ensure that everyone at the state 
and local level has the information and technical assistance 
they need to successfully implement the law and improve 
education in the state of South Carolina.
    I am confident that the educational reforms in No Child 
Left Behind will yield improved results for South Carolina's 
children. I look forward to hearing from all of our witnesses 
this morning. I am confident that we will be able to work 
together with all of you to ensure that the law is fully and 
successfully implemented in our state.
    Again, I would like to thank everyone for attending today. 
I would especially like to thank our distinguished witnesses 
for their participation. I look forward to your testimony.
    [The prepared statement of Mr. DeMint follows:]

  Statement of Hon. Jim DeMint, a Representative in Congress from the 
                        State of South Carolina

    <bullet> Good morning. Thank you for joining us here today.
    <bullet> I would like to take this opportunity to thank 
Congressman Carter for taking time out of his busy schedule to come to 
South Carolina in order to make this hearing possible. Mr. Carter, I 
appreciate your willingness to join me in reviewing this very important 
issue for children across America.
    <bullet> I would also like to thank everyone at Brushy Creek 
Elementary for opening up their fine school to us today. I would 
especially like to thank Principal Sandra Monts for all of her hard 
work.
    <bullet> We are here today to discuss the issue of how the public 
school choice and supplemental educational service provisions in the No 
Child Left Behind Act are being implemented at the state and local 
level.
    <bullet> As many of you know, the No Child Left Behind Act is a 
landmark piece of legislation that seeks to ensure that all children 
learn. To do this it requires annual testing of public school students 
in reading and math in grades 3-8, report cards for parents on school 
achievement levels, improved teacher quality requirements that ensure 
all students are being taught by a qualified teacher, and public school 
choice and supplemental service options for parents with children in 
underachieving schools.
    <bullet> I am confident No Child Left Behind will help close the 
achievement gap that exists in America between disadvantaged students 
and their more affluent peers.
    <bullet> One of the key elements in the No Child Left Behind Act 
centers around giving parents information about the quality of their 
children's education, and then empowering those parents to make 
decisions about that education.
    <bullet> Although educational choice and supplemental services 
were supposed to be fully implemented at the beginning of 2002-2003 
school year, the U.S. Department of Education's review of 
implementation over the last year indicated that compliance has been 
sporadic.
    <bullet> It appears as though some school districts did not offer 
educational choice or supplemental services to all students who were 
eligible. Some did not offer sufficient choices to eligible students. 
Others did not fund educational choice-related transportation and 
supplemental educational services at the level required under the Act.
    <bullet> I understand the confusion that some States and school 
districts have about the implementation of some of the choice 
provisions in No Child Left Behind. I want to assure you that I, along 
with other members of the House Education and the Workforce Committee, 
am working closely with the U.S. Department of Education to ensure that 
everyone at the state and local level has the information and technical 
assistance they need to successfully implement the law and improve 
education in the State of South Carolina.
    <bullet> I am confident that the educational reforms in the No 
Child Left Behind Act will yield improved results for South Carolina's 
children. I look forward to hearing from all of our witnesses this 
morning. I am confident that we will be able to work together with all 
of you to ensure that the law is fully and successfully implemented in 
our state.
                                 ______
                                 
    Mr. DeMint. At this time, I would like to yield to my 
colleague, Mr. Carter, for an opening statement he would like 
to offer.

STATEMENT OF HON. JOHN R. CARTER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Carter. Good morning. First, I would like to thank 
Congressman DeMint for holding this hearing. I look forward to 
this hearing and to hear from all of the witnesses that are 
going to be here, those folks who are kind enough to be with us 
this morning.
    I think I ought to tell you a little bit about me so that 
you know who this stranger is up here. I am from--the part of 
Texas that I am from is central Texas. I live just north of 
Austin, which is the capitol city. My district stretches from 
Austin to Houston. It also includes Texas A&M University, which 
is a big deal. My background is that I have been for the last 
20 years a state district judge, so if I appear to be frowning 
at you from time to time, I apologize. That is the nature of 
being a judge. You sit and frown at people, but I really am not 
that mean. I am real happy to be here in South Carolina. I want 
to thank you for bringing up this beautiful weather which 
welcomed me when I got here.
    No Child Left Behind is a critical piece of educational 
legislation that will help close the achievement gap that 
exists in America between disadvantaged students and their more 
affluent peers. Through hard work--the hard work of state and 
local educational leaders we will ensure that every child 
regardless of race, economic background, ability or geography 
has access to first class education. No Child Left Behind 
reflects the four pillars of President Bush's education reform 
agenda--accountability in testing, flexibility in local 
control, funding that works and expanded parental option. No 
Child Left Behind requires annual testing of public school 
students in reading and math in grades 3 through 8, report 
cards for parents on school achievement levels, improved 
teacher quality requirements that ensure all of our students 
are being taught by qualified teachers and public school choice 
supplemental service options for parents with children in 
underachieving schools.
    Improving education by increasing options for parents and 
students is top priority for Republicans in Congress. School 
choice offers proven results of better education not only for 
children enrolled in specific plans but also for children whose 
public schools benefit from increased competition. We are 
believers in competition. Currently more affluent parents 
already have school choice because they have the ability to 
send their children to the best schools available, including 
moving to a better neighborhood. Low income parents are all too 
often forced to keep their children trapped in underachieving 
and dangerous schools that do not teach and do not change. 
These students should have an escape route. Giving parents new 
options to achieve greater choice and competition in their 
child's education is the critical next step in education reform 
not only for thousands of disadvantaged students but also for 
struggling schools and districts. Our educational system should 
serve the students. The students are important, not the 
educational system.
    The provision of supplemental services is a critical 
element in No Child Left Behind. Supplemental services provide 
an important option for students that are trapped in 
underperforming schools by allowing them to access additional 
tutoring and specialized services in order to improve their 
academic achievement. Supplemental services provide an 
important alternative to public school choice in rural areas 
since transportation to better performing schools is difficult 
in rural communities.
    I was visiting with a lady just a few minutes ago here 
talking about the rural communities. We have a lot of rural 
communities in Texas. Many of those are much farther apart than 
they are here in South Carolina. That is the whole purpose of 
coming up with this alternative.
    As a Member of Congress from the state of Texas, I am 
about--I am pleased that my home state has been able to approve 
approximately 30 supplemental service providers that are 
helping students to achieve academic--to improve their academic 
achievement.
    I would also like to take this opportunity to thank 
Congressman DeMint for organizing this hearing. I would like to 
thank all of the witnesses that are here today. I am looking 
forward to hearing from the folks here in South Carolina. Thank 
you.
    Mr. DeMint. Thank you, Mr. Carter.
    We have two panels of witnesses today and I will begin by 
introducing the witness on our first panel. Ms. Nina Rees, 
Deputy Under Secretary, Office of Innovation and Improvement 
for the U.S. Department of Education in Washington.
    Ms. Rees currently leads the newly created Office of 
Innovation and Improvement for the U.S. Department of 
Education. Previously Ms. Rees was one of the four aides to 
Vice President Cheney advising him on domestic policy issues. 
From 1997 through 2001 Ms. Rees served as the Chief Education 
Analyst for the prestigious Heritage Foundation, earning the 
Foundation's Rita Ricardo Campbell award in 1999 because of her 
outstanding contributions to the analysis and promotion of the 
Free Society.
    Ms. Rees, we normally limit our witnesses to 5 minutes but 
since you are the whole first panel, I will give you some 
discretion in taking as much time as you need to discuss your 
testimony and to answer our questions. So please begin.

     STATEMENT OF NINA S. REES, DEPUTY UNDER SECRETARY FOR 
    INNOVATION AND IMPROVEMENT, U.S. DEPARTMENT OF EDUCATION

    Ms. Rees. Thank you, Mr. Chairman.
    Mr. Chairman and Mr. Carter, thank you for the opportunity 
to testify before you today about the public school choice and 
supplemental service provisions of the No Child Left Behind 
Act.
    I would also like to take this moment to thank Mr. DeMint 
for his leadership in expanding educational choice, namely your 
recent effort to expand choices for students with disabilities.
    Choice and supplemental services under Title I are probably 
one of the most important provisions of No Child Left Behind 
and ones that the Bush Administration has been focusing on a 
great deal over the past few years.
    Ensuring that these provisions are implemented properly is 
one of the key goals of the Department of Education, one of the 
reasons why the Secretary of Education created my office of 
Innovation and Improvement a little over 10 months ago. In 
addition to administering roughly 25 grant programs, our office 
is also charged with coordinating the implementation of the 
public school choice and supplemental service provisions of No 
Child Left Behind and with forging strategic linkages between 
the two provisions and other choice-related programs that the 
Department oversees and administers such as the Charter School 
grant p-Program.
    Again, while our office has only been around for 10 months 
we have spent a great deal of time thinking about ways to make 
school choice a reality for students who are currently 
attending schools that are in need of improvement or corrective 
action.
    Now before describing what exactly it is that we've done to 
help implement these provisions, I want to tell you a little 
bit about the public school choice and supplemental service 
provisions of the law, because I feel that a lot of times when 
you go to states and school districts there is still a lot of 
confusion as to what exactly the law outlines.
    As you know, the No Child Left Behind establishes 
consequences for schools that receive Title I funding and fail 
to make what we call ``adequate yearly progress'' over a period 
of years. So if a Title I school does not make adequate yearly 
progress for two consecutive years it is identified as a school 
in need of improvement and every child in that school qualifies 
for public school choice.
    If a school enters into its second year of improvement 
because it fails to make adequate yearly progress for 3 years 
in a row, the district must also offer to students enrolled in 
that school who are from low-income families access to what we 
call ``supplemental services'', which are also known as after-
school tutoring and other instructional aids in order to make 
sure that the child comes back up to the grade level that he or 
she is supposed to be performing at.
    The statute also includes very specific requirements 
regarding the amount of money that the affected districts must 
spend on public school choice and supplemental services. We 
have in essence told the districts that they can set aside up 
to 20 percent of their Title I funds for public school choice 
and supplemental services, but they do not necessarily have to 
only rely on Title I funds, they can certainly use other pots 
of money if they have access to other resources. Of that 20 
percent, 5 percent must be set aside for transportation, for 
public school choice and at least 5 percent must set aside for 
supplemental services. The statute also sets forth requirements 
on the amount of money a district must spend per individual 
student for supplemental services. This comes to somewhere 
about $800 to $1500 or more, depending on the school district 
that the child resides in.
    Now those are some basic requirements under the statute. 
The Department has spent a lot of time over the past year 
putting together questions and updating the guidance that is 
made available to states and school districts for districts to 
be able to implement these provisions as well as possible. 
However, we also feel that a lot of school districts, even 
though they want to follow the letter of the law, oftentimes do 
not have the resources and the know-how at their disposal in 
order to be able to implement these provisions in a quick and 
effective way, which is why my office has been in the process 
of putting together a booklet of best practices in both of 
these areas, which will be released sometime in March or April 
of 2004.
    Now let me say a little bit about what we have heard so far 
and how we think the implementation of these provisions is 
proceeding so far. We do not yet have any kind of national data 
available to us from states about the status of implementation 
in different school districts. But based on the reports we have 
gotten so far from different districts, the media and other 
outlets, we have basically identified four distinct problems 
with the way the implementation is occurring around the 
country.
    First of all, implementation occurred in a very uneven 
fashion in 2002-2003. States often did not have their test 
scores available in time to be able to identify schools in need 
of improvement, which is the first thing that needs to happen 
before a district offers public school choice or supplemental 
services. States also took some months to approve their initial 
pools of supplemental service providers. But we would also 
admit that by the second semester of last year a lot of 
districts had access to their lists and also had access to the 
state lists of providers. We hope, also, that we will probably 
see much more consistent implementation of the law in this 
existing school year.
    Second, state approval of supplemental service providers 
has increased significantly, which means that parents 
opportunity to select the services that are best for their 
children has also increased. In fact, a quick look at the State 
Department of Education's website identifies over 1400 
providers in different parts of the country standing ready to 
serve students. Nonetheless, not all communities have available 
a comparable range of service providers. Access in rural 
communities is very spotty.
    Third, the Department has received reports that some 
districts are not funding choice-related transportation or 
supplemental services at the levels called for in the statute. 
When we receive these reports, what we tend to do is call the 
state education agency to ask them to tell us a little bit more 
about why a particular school district has not been setting 
aside the necessary sum of funds. Note, however, that it is not 
always clear prior to the investigation whether the law has 
been violated. In fact, districts can spend less than the 
statutory funding levels for transportation and supplemental 
services if they have satisfied the demand for these services. 
That is kind of a rough area that is difficult for us to 
decipher, and we need to discuss a little bit more about if we 
want the implementation to go a lot more smoothly.
    And last--and this relates to my final point which I just 
raised. We are finding numerous instances around the country 
where a school district is arguably abiding by the law, it is 
really not yet implementing the requirements very well. Again, 
this is why it is so important for my office and other folks at 
the Department to be thinking of ways to assist school 
districts with ``best practice'' models and other types of 
technical assistance so they can better implement these 
provisions of the law.
    In saying this, I do not intend to be overly critical of 
states or school districts. I know that both choice and 
supplemental services impose new administrative requirements on 
them and also pose complicated issues that can be difficult to 
resolve. But I strongly believe that these types of issues 
provide a compelling basis for the Department's efforts to work 
with states, school districts and providers on resolving some 
of these issues so we can do a better job of aggressively 
implementing these provisions of the law.
    Mr. Chairman, that concludes my remarks. I would be happy 
to take any questions you may have.
    [The prepared statement of Ms. Rees follows:]

 Statement of Nina S. Rees, Deputy Under Secretary for Innovation and 
               Improvement, U.S. Department of Education

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify before you today on implementation of the public 
school choice and supplemental educational services requirements of 
Title I of the Elementary and Secondary Education Act of 1965, as 
reauthorized by the No Child Left Behind Act of 2001.
    Choice and supplemental services under Title I are two of the most 
important elements of No Child Left Behind, and the Bush Administration 
has made their successful implementation a very high priority. No Child 
Left Behind provides resources for schools identified for improvement 
to adopt new instructional approaches, curricula, and teacher 
professional development strategies, and to carry out other activities 
designed to enable them to provide all children with a high-quality 
education. But the process of turning around a troubled school can take 
time, and during the school improvement process, parents of children 
attending a school identified for improvement must have options for 
ensuring that those children receive high-quality educational services. 
The choice and supplemental services provisions give them two very 
powerful options. Both provide parents, who are a child's first and 
most important teacher, additional opportunity to be involved in, and 
make important decisions about, their child's education. Both are based 
on the principles of quality and accountability--the choice provisions 
because, under the statute, eligible students may transfer only to 
schools that are not in ``school improvement status,'' and the 
supplemental services provisions because services may be provided only 
by organizations or other entities that have a track record of success 
and are willing to be held accountable for results. These components of 
No Child Left Behind thus have the potential to make a major difference 
in educational outcomes for children attending schools in low-income 
communities.
    Ensuring that these provisions are implemented well is one of the 
reasons Secretary Paige created, late last year, the Department's new 
Office of Innovation and Improvement, the office that I lead. In 
addition to administering a number of the Department's grant programs, 
we are charged with overseeing, with the Office of Elementary and 
Secondary Education, the implementation of choice and supplemental 
services and with forging strategic linkages between the two provisions 
and other choice-related programs and activities, such as charter 
schools and private schools, that are within my office's jurisdiction. 
While our office has been in existence for only about 10 months, we 
have already devoted considerable time and attention to this part of 
our mission.
    Before describing what we have done and the activities that we have 
under way, it may be useful to summarize for the Committee some of the 
major requirements of the Title I statute and regulations related to 
choice and supplemental educational services.
    As you know, the No Child Left Behind Act establishes consequences 
for schools that receive Title I funding and fail to make ``adequate 
yearly progress'' (AYP) over a period of years. If a Title I school 
does not make AYP for two consecutive years, it is identified for 
improvement, and the local educational agency must give all students 
attending that school the opportunity to transfer to another school 
within the district. The schools to which those students are given the 
opportunity to transfer cannot be schools that have been identified as 
in need of improvement. In addition, the regulations require that all 
students be given at least two choices of schools to which they can 
transfer, so long as there are that many eligible schools in the 
district.
    Although many school districts have had open enrollment or other 
choice programs in place for years, one of the key elements of No Child 
Left Behind is that districts must provide, or provide for, 
transportation for all students who elect to change schools under the 
Title I choice provisions, up to a spending limit in the statute. This 
makes the exercise of choice much more realistic than it would 
otherwise be.
    In addition, the law sets out requirements that apply in situations 
in which there are no choices available within a district--for 
instance, because the district has only one school at a particular 
grade level, or because all schools at that level are undergoing 
improvement. In these cases, the school district must, to the extent 
feasible, enter into agreements with other districts that can absorb 
some of its students as transfers.
    If a school enters its second year of improvement, because it fails 
to make AYP for another year, the district must also offer, to students 
enrolled in that school who are from low-income families, the 
opportunity to receive supplemental services. Supplemental services are 
tutoring and other academic enrichment services that are provided 
outside the regular school day, that add to the instruction students 
receive during the school day, that are of high quality and research-
based, and that are designed to enable students to increase their 
academic achievement and attain proficiency according to State 
standards. These services are an alternative to the continuing 
opportunity to transfer to another school.
    Any type of entity--a public school or school district, a private 
school, a for-profit or non-profit organization, a community or faith-
based organization, even an individual teacher or group of teachers who 
create an entity under State law--can become a provider of supplemental 
services, so long as it is approved by the State as having a high-
quality program and a strong track record. States then inform local 
school districts of which providers are available to provide services 
in their area, and parents can select the provider that they believe is 
most appropriate for their child. Once a selection is made, the school 
district enters into a contract with the provider, spelling out the 
services to be provided, the goals to be attained, how progress toward 
those goals will be measured, and how the family and the school will be 
kept informed of that progress.
    The statute also includes very specific requirements regarding the 
amount of money that affected districts must spend for choice-related 
transportation and supplemental services. Any district that has schools 
covered by the choice and supplemental services requirements must spend 
at least the equivalent of 20 percent of its Title I allocation on the 
combination of choice-related transportation and supplemental services. 
(A district may, at its option, spend more for these purposes.) Within 
that 20 percent, at least 5 percent must be used for transportation and 
at least 5 percent for supplemental services, with the remaining 10 
percent allocated at district discretion based on relative need and 
demand. The statute also sets forth requirements on the amount of money 
a district must spend, per individual student, for supplemental 
services.
    Those are some of the basic requirements. Because choice and 
supplemental services are very new elements of Title I, the States and 
the districts have needed much more information than just the basics. 
The Department has responded by completing and issuing comprehensive 
guidance on both provisions. We issued draft guidance on choice and 
supplemental services last December, and then released an update to the 
supplemental services guidance, mainly responding to new questions we 
had received, in August. We are currently updating the choice guidance, 
and hope to release the new version very soon. We have been active in 
explaining these guidance packages, through conferences and other 
activities with State and local administrators.
    The law, the Department's regulations, and the guidance, taken 
together, tell States and school districts what they may do, what they 
may not do, and what they have to do. But for successful 
implementation, administrators at the State and local levels need more; 
they need ideas and strategies for doing these things well. My office 
has responded by commissioning a series of publications describing 
``best practices'' in different areas. The first two of these 
publications, which will look at choice and supplemental services, will 
be available in late winter and early spring of next year. They will 
respond to districts'' concerns in such areas as how to provide all 
eligible students with choice when the number of spaces in available 
schools may be limited, or how to provide supplemental services 
effectively through distance learning.
    I believe that supplemental services will not be effective--or at 
least not as effective as they could be--if there is not a wide range 
of service providers available. This may be particularly important in 
rural communities, where some of the established providers do not have 
a presence. Some of the more rural States have approved only a handful 
of providers. The answer, I believe, will be to encourage more local 
groups and organizations to become providers. Through my office, we are 
reaching out to the private school community, to encourage private 
schools to become providers, and the Department's Center for Faith-
Based and Community Initiatives is making a similar effort with faith- 
and community-based organizations. In addition, we are reaching out to 
the community of providers of after-school programs and in December we 
will hold a conference, jointly hosted with the Mott Foundation, on 
building linkages between supplemental services and 21st Century 
Community Learning Centers programs.
    The new provisions also will not be successful if the parents of 
eligible students do not know about them. While school districts are 
responsible for notifying those parents about choice and supplemental 
services, a letter coming home from the district may not be enough. In 
order to broaden public awareness of supplemental services, the 
Department contracted for a series of video news releases and public 
service announcements that aired in communities during the time their 
school districts were enrolling students for services.
    Let me say a little bit about how I think the implementation of 
choice and supplemental services is proceeding. We do not yet have 
national impact or evaluation data--it is simply too early to obtain 
that kind of information--but based on reports from the States, school 
districts, and the media, I think the following can be said with some 
confidence:
        <bullet> Implementation occurred unevenly during school year 
        2002-2003. States often did not have their test score data 
        available in time to identify schools as in need of improvement 
        before the beginning of the school year, which meant that 
        parents were not given the opportunity for choice in time. 
        States also took some months to approve their initial pools of 
        supplemental service providers, which meant that services were 
        not available early in the school year. By the second semester, 
        however, students were receiving services in almost all States. 
        We hope for, and expect, much more consistent implementation 
        this school year.
        <bullet> State approval of supplemental service providers has 
        increased significantly, which means that parents'' opportunity 
        to select the services that are best for their children has 
        also increased. As of the end of September, States had approved 
        over 1450 providers, as indicated by postings on their 
        websites. Nonetheless, not all communities have available a 
        comparable range of service providers; access in rural areas 
        can be spotty.
        <bullet> The Department has received reports that some 
        districts are not funding choice-related transportation or 
        supplemental services at the levels called for in the statute. 
        Some may be arbitrarily limiting the amount they spend in 
        total, or the amount spent per pupil for supplemental services, 
        at less than the statutory requirements. When we receive these 
        reports, our practice is to notify the State educational 
        agencies, which have responsibility for first-line enforcement 
        of Title I requirements, and ask them to investigate the 
        situation and ensure that any violations of the law are 
        corrected. Note, however, that it is not always clear, prior to 
        an investigation, that the law has been violated. Districts can 
        spend less than the statutory funding levels for transportation 
        and supplemental services if they have satisfied the demand for 
        those services.
        <bullet> This relates directly to my final point about 
        implementation. We are finding numerous instances, around the 
        country, where a school district is arguably abiding by the 
        law, but is not yet implementing the requirements very well. 
        Some have notified parents about choice and supplemental 
        services, but did not make the aggressive outreach effort one 
        would hope for and, thus, many families did not really find out 
        what was available. Some made it more difficult for parents to 
        sign up than they could have, for instance by requiring them to 
        enroll at district headquarters. Some have established what may 
        be unreasonable contractual requirements with providers, or 
        made it difficult for outside providers to make use of school 
        facilities.
    In saying these things, I do not intend to be overly critical of 
the districts. I know that both choice and supplemental services impose 
new administrative requirements on them and also pose complicated 
issues that can be difficult to resolve. And contractual requirements 
that may seem burdensome to providers may make good sense. But I 
strongly believe that these types of issues provide a compelling basis 
for the Department's efforts to work with States, school districts, and 
providers on resolving any issues and to identify and disseminate 
information on best practices. We will continue with that very 
aggressive effort this year.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions you or the other Members may have.
                                 ______
                                 
    Mr. DeMint. Great. Thank you, very much.
    Let me ask kind of a general question just to make sure 
that we have covered it. What does the Department of 
Education--or why does the Department of Education think that 
public school choice and the availability of supplemental 
services will help every child learn?
    Ms. Rees. To answer that question, I think it is important 
to give a little bit of background about why these provisions 
were put in place to begin with. Most individuals who have 
studied the course of Federal education policymaking since 1965 
would attest to the fact that the way we have been funding 
states and school districts so far has not been an effective 
way for us to see if these programs that we are funding are 
actually raising student achievement. So one of the key things 
that the President and the Secretary did upon taking office and 
putting in place No Child Left Behind was to also put in place 
a series of consequences when states and school districts and 
schools that received Federal funds were not able to raise 
student achievement on a regular basis. So the idea behind 
public school choice and supplemental services is really 
predicated on the notion that the funds available at the 
Federal level are funds targeted at the needs of low-income 
students, and that we need to trust the parents of those 
students with the decision as to where they should be educated 
at times when the school system has failed, for whatever 
reason, to raise their student achievement on a regular basis. 
So it is a shift in thinking from simply funding school systems 
to funding the needs of individual children and trusting their 
parents a little bit more.
    Mr. DeMint. In your opinion, are the school districts 
reserving the required amount of funding in providing the 
necessary transportation to facilitate the school choice?
    Ms. Rees. As I mentioned in my testimony, it is very 
difficult for us to access whether they are in fact setting 
aside enough funds. The reports we are getting from the 
provider community primarily indicate that they are not setting 
aside as much as the law has required. But at the same time, as 
I mentioned, if they can demonstrate that there is no need for 
these services, they can always spend less on choice and 
supplemental services and shift the funds to other types of 
programs that they have to offer. The statute does not require 
them to create a separate pot of money for choice and 
supplemental services, so in looking at their bookkeeping you 
can also not detect as to where exactly they are investing the 
funds for choice and supplemental services. And again, these 
are glitches along the way that we hope to overcome by 
highlighting ``best practice'' models and showing them how they 
can best provide choice and supplemental services while at the 
same time ensuring that if they have extra funds they can at 
some point in time invest it in other needs that their schools 
have.
    Mr. DeMint. You mentioned best practices, and I see that 
one of the roles of the Department of Education is to identify 
where these programs are working best and to communicate that 
back to districts all across the country. Is that happening 
now?
    Ms. Rees. We have commissioned a study to look at best 
practice models. Unfortunately unlike some other areas--other 
innovative areas that the Department is investing in, such as 
charter schools and public school choice--this is a very new 
area. So we have not been able to find one school district that 
is doing everything that the statute and the regulations have 
outlined in a very effective fashion. However, we are hopeful 
that by the time this report is published that we have at least 
identified certain practices within each district that address 
some of the components of the law, be it parental outreach or 
communications, and work with the provider community so we can 
identify different things that they are doing. Also that you 
can offer a full picture to a district that may be wanting to 
use those practices to do everything in a proper way.
    Mr. DeMint. One of the complaints I have heard from those 
involved with school district administration is that while 
Title I funds may be used for supplemental services they can be 
used for transportation, but if a student moves from one public 
school to another, a Title I student, that that money does not 
effectively follow that student to the other school. Is that 
true?
    Ms. Rees. I have also heard these complaints, except that 
if--depending on how the states' funding formulas work, once a 
child moves from one school to another, supposedly the 
following year the state allocations of funds will take into 
account that this child is now in a different school and the 
funds that the state is allocating for that child ought to also 
follow that child to the new school.
    Mr. DeMint. If the new school is a Title I school.
    Ms. Rees. Or even if it is not a Title I school, your per-
pupil allocation would ultimately end up with you in the new 
school.
    Mr. DeMint. OK.
    Ms. Rees. You would have to have at least 10 Title I 
students in your school in order to be considered a school that 
is receiving Title I for the Title I funds to continue flowing 
into the new school.
    Mr. DeMint. I will yield to my colleague, Mr. Carter, for 
some additional questions.
    Mr. Carter. This area of school funding--are the school 
districts calculating the per-pupil average correctly? Are 
districts making sure that parents are aware of this average 
and what does this mean to the children?
    Ms. Rees. For supplemental services?
    Mr. Carter. Right.
    Ms. Rees. As noted earlier, based on the different reports 
that we are getting, primarily from the providers who are 
serving the students in these school systems, it appears that 
they are not necessarily setting aside enough money for school 
choice and supplemental services. Even more so, they are not 
setting aside the per-pupil amount that the child is entitled 
to in order to get services at the provider of their choice. We 
have several systems or several mechanisms at our disposal to 
investigate how well school districts are doing this. At worst, 
we can also go to the school district and audit the district to 
see if they are in fact setting aside funds. But also keep in 
mind that it is very difficult for us at the Federal level to 
delve into what 16,000 school districts around the country are 
doing. And in terms of the Federal role in education, we 
believe that we should entrust states with the responsibility 
of doing this type of monitoring and auditing on a more regular 
basis.
    Mr. Carter. The purpose of No Child Left Behind, as I 
understand it, is just what it says. It is child based--a 
child-based program, and what we are trying to do, the way I 
understand the concept, is to make sure that every child that 
graduates from school here in South Carolina has the skills to 
live life in this United States. Just a few minutes ago, I was 
interviewed by a lady on the radio and she informed me that a 
couple of non-performing schools here in this school district 
had been closed. I do not know if the reasons--I am sure the 
authorities had good reasons. It is not our goal to close non-
performing schools, it is our goal, as I understand it, to 
improve non-performing schools, is that right?
    Ms. Rees. That is correct. However, if a school district 
feels that the best way to reform a school is by closing it and 
reopening it under new management and with a new structure in 
place, then that is also something that we have encouraged in 
the past.
    Mr. Carter. And that would be more along the lines of what 
we would see as the improvement is thinking outside the box as 
I like to say. We hope to be encouraging administrators to 
think outside the box and try to come up with creative new ways 
to make non-performing schools performing schools. We are not 
trying to close down and eliminate and make all those children 
be bused across town. We are trying to make--to encourage 
innovative thinking to make those schools improve and hopefully 
this is sort of a carrot rather than a stick to get that done. 
Would you think that is a good description?
    Ms. Rees. Absolutely. And I think increasing options is one 
of the key goals of the law, and you would in essence want to 
have more schools created in a community rather than limiting 
the pool of schools within a community.
    Mr. Carter. When we are talking about the ability to 
transfer from non-performing schools, as I said in my opening 
statement, once we get out into the rural areas of a state 
there is no option in many instances to find another performing 
school within any reasonable transportation time from the non-
performing school or within the district. So let us talk about 
the alternative program that we would have which is providing 
services for those children. Is that the reason--the No. 1 
reason why we have come up with tutors and type of thing to 
provide service here? And what would you see for the rural 
school? What is the rural school's solution to the non-
performing underprivileged student?
    Ms. Rees. Those are two separate questions. The Secretary 
has spent a lot of time thinking about ways to come up with 
solutions for the needs of rural districts. He has, in fact, 
put together a task force that is going to come up with a 
series of solutions, hopefully, about ways you can address 
these needs. But keep in mind the needs of different rural 
districts are very different. So what may work in Alaska is 
probably not going to necessarily work in another state that 
just happens to have a rural community.
    The No. 1 reason why supplemental services was put in place 
was not necessarily to address the needs of students in rural 
communities, but more so to address this whole question of what 
happens once a school continues on an annual basis not to show 
improvement. So whereas after 2 years you have to offer public 
school choice, after 3 years we have asked that districts offer 
additional tutoring programs that parents can pick and choose 
from.
    Am I answering your question?
    Mr. Carter. Yes, that answers the question.
    Ms. Rees. So the option to take advantage of after-school 
tutoring in instances where there are no other public schools 
available is something that we have put on the table, but at 
the same time we think it is very important for districts to 
think of other innovative ways to offer public school choice of 
some kind in these rural districts, be it through virtual 
schooling or creating charter schools. In fact, one of the key 
ways to really generate momentum for the public school choice 
piece of the law is by lifting the caps on charter schools and 
encouraging the creation of more charter schools in some areas 
that do not have a lot of those schools already.
    Mr. Carter. Finally, in the issue of supplemental services, 
what is the Department of Education doing--
    Ms. Rees. I am sorry. Can I just amend that?
    Mr. Carter. Yeah.
    Ms. Rees. The other thing we have been trying to encourage 
states to do is encourage interdistrict choice so that you 
contract with a neighboring district to send a child to a 
neighboring public school of your choice.
    Mr. Carter. When we talk about supplemental services, what 
is the Department doing to encourage more private schools, 
along with community-based faith-based organizations?
    Ms. Rees. We have an outfit--the faith-based office of the 
Department of Education--whose sole job is to encourage the 
creation of more faith and community-based supplemental service 
providers. Our office has also conducted a number of seminars 
with private school organizations. We just had a meeting-- a 
very good meeting with the Archdiocese of Washington, D.C. to 
encourage them to consider becoming supplemental service 
providers. A lot of times these smaller schools simply do not 
have access to information or access to a grant writer who can 
apply for--or fill out the forms necessary in order to become a 
supplemental service provider. So we really see a real need. 
Well, the Department hopes to really offer more technical 
assistance to these schools because ultimately in order for 
this piece of the law to really function as well as the 
President and the Secretary would like it to, we need to really 
be able to diversify the pool of providers. Right now, what we 
currently have on the books are providers who are currently 
already in existence in Title I districts and offering services 
to the schools. The number of faith and private providers is 
fairly low, so we hope to increase those numbers in the next 
year.
    Mr. Carter. Thank you very much, Ms. Rees.
    Mr. DeMint. Ms. Rees, I want to thank you for taking time 
to come down. I know you have to leave to head back to 
Washington, but this has been very timely and valuable 
testimony. I appreciate your expertise on this issue.
    I am particularly interested in the continued development 
of alternative supplemental services that are community based. 
I really look forward to a report in that area that we have 
more providers in the future. So I would dismiss you and ask 
our second panel to come forward and take their seats.
    I think we have you all scrunched in there. Be sure not to 
push Mrs. Rushing-Jones off the stage.
    [Laughter.]
    Mr. DeMint. Well, let us get started. What we would like to 
do with this panel is allow all of you to give your testimony 
and then we will go back and just ask a lot of questions, so we 
will not stop after each to talk. We will limit you to 5 
minutes. So if you have additional statements to make, we can 
do that during the question and answer time, but try to hold 
your statements to 5 minutes so we can move through and get to 
the questions and answers.
    We will start with Mrs. Wanda Rushing-Jones, the 
Coordinator of Federal Programs for the South Carolina 
Department of Education. Mrs. Rushing-Jones currently serves as 
the Coordinator of Federal Programs Unit for the Department of 
Education here in South Carolina. Previously Mrs. Rushing-Jones 
was the South Carolina Title I coordinator and Title I project 
supervisor in South Carolina. Also, the Subcommittee has 
learned that Mrs. Rushing-Jones was married this past week. So 
we certainly want to extend our heartfelt congratulations and 
thank you for spending your honeymoon here with us today.
    [Laughter.]
    Mr. DeMint. So we will let you start us off and I will 
introduce the other panelists when we are finished.

STATEMENT OF WANDA RUSHING-JONES, COORDINATOR, FEDERAL PROGRAMS 
 UNIT, SOUTH CAROLINA DEPARTMENT OF EDUCATION, ACCOMPANIED BY 
   SANDRA LINDSAY, DEPUTY SUPERINTENDENT OF THE DIVISION OF 
               CURRICULUM SERVICES AND ASSESSMENT

    Mrs. Rushing-Jones. Thank you. Mr. Chairman and members of 
the Committee, I cannot think of a better place to be just 
after the honeymoon. Thank you for having me.
    What I would like to do is share with you a state 
perspective from South Carolina on how we are implementing 
supplemental services and school choice.
    This past school year we did have 27 schools identified for 
school improvement. Currently based upon a preliminary school 
improvement identification, we did move forward with 
notification to parents on the choice issues and supplemental 
services. With our final school preliminary identification we 
have 82 schools identified for school improvement. Fifty-nine 
of those are implementing choice only and 23 are in the 
category of choice and supplemental services.
    To disseminate the information about these requirements to 
the local school districts we use many different means. First 
of all, we utilize the Department's website on an ongoing 
basis, and we do send e-mails on a regular basis to the 
district Title I coordinators. We have had various meetings 
with our schools who are identified for school improvement and 
with the district staff. And this past year, to ensure the 
implementation was on schedule, we made calls over a 2 to 3-
month period directly to the school districts to make sure they 
were implementing the procedures appropriately and to learn of 
any questions they might have so that we could share those with 
the Washington staff.
    We have made numerous presentations to districts, we have 
had several conferences and held additional meetings about No 
Child Left Behind, but really targeting on supplemental 
services and choice. We have shared samples of the contracts 
that may be used for establishing the supplemental services 
with providers and parents. And with the recent guidance in 
supplemental services that we received August 22nd, we held a 
1-day meeting on September 23rd to share all of that 
information with districts. And we do annually train our Title 
I coordinators that are new.
    With the school choice provision, the process is very much 
one that districts would follow based upon that preliminary 
identification prior to the beginning of school. They did so 
through the purpose of newsletters or newspapers and also 
letters sent home to parents. For the 2003-2004 school year, we 
had 38,000 children approximately that were eligible for 
choice. Of these we understand right now 1345 children have 
taken advantage of choice and the number of schools offered as 
choice options would be 81.
    There are some issues related to the choice situation that 
I thought I might share with you. Although school capacity is 
not a reason to not implement choice, it is something we do 
need to consider from the standpoint of finding some relief on 
the funding for additional space such as portables to make a 
difference with that space issue.
    We do also have children that are transferring to schools 
that are not Title I eligible in some cases. And it is true 
that you cannot transfer those staff with those children and 
use Title I funding, but with state and local budget cuts they 
really need to have some resources to accommodate the staffing 
needs.
    One concern under Title I legislation is the requirement 
for comparability. That is a look between the state and local 
resources to ensure that there is a comparable basis between 
the Title I and non-Title I schools on a per-pupil expenditure 
or instructional staff/student ratio. As you start to move 
staff between the Title I and non-Title I schools, then it may 
prevent a district from being able to demonstrate comparability 
as is required under the Title I law.
    Transportation is also an issue for a few places. In most 
of our districts they have been able to accommodate the choice 
transportation through their current bus situation, 
particularly with Greenville. I know they have asked on 
occasion to purchase a bus under Title I funding. We were 
waiting for an answer at one point, so they moved forward with 
leasing the buses. We did finally get an answer that we could 
purchase the bus, but the issues tied to that was still looking 
at whether or not this was going to be a supplementary 
component in addition to what had already been done for that 
child in prior years to get to his regular school. And also, if 
there was no longer a need for the bus what would be the 
disposition issues.
    Moving to supplemental services. In the current school year 
we have 21 providers approved. We do not presently have a 
number to share with you today on the numbers that took 
advantage of supplemental services, because that process is 
underway. Everyone is starting with their notice to parents, 
following them now with the meetings in schools. Last year we 
did have 297 students that took advantage of supplementary 
services.
    South Carolina is probably unique in the fact that we have 
an annual application process for providers and we thought that 
to be very critical as we were learning the early stages of 
implementation of supplemental services. We knew the word was 
just starting to get out to the providers and we wanted to 
ensure the best quality applicants that we could possibly could 
have as approved providers.
    From the monitoring standpoint, we have been monitoring 
districts onsite to ensure that they have implemented the 
program correctly, and helping them to learn through technical 
assistance as well. We have been monitoring all of the 
applications and making sure they were meeting that 20 percent 
set aside. So we do not approve an application unless they have 
the appropriate amount in reserve.
    All of the providers that were approved this past year that 
did offer services were monitored. We did this with the team. 
That team conducted phone interviews of the parents, students, 
providers, as well as various district staff. And then we 
additionally went onsite and talked with the providers about 
the instructional materials and the instructional delivery. 
Monitoring was based upon looking at the application itself 
that was submitted, the contract that was developed, the 
satisfaction of parents, students, the integrity of the 
provider and various other pieces were reviewed. We did not 
look at the effectiveness of the provider this past year due to 
the late time of starting supplemental services with the 
transition under the new law.
    Information for dissemination to the providers and parents 
has been very much where we would share the information with 
districts and then we are asking districts to share the 
information with providers. We have aided them in this process 
by this year including a one-page summary of the providers' 
services, qualifications, effectiveness, and we are lifting 
that one-page summary from each of the approved providers 
sharing it with districts and asking that they in turn then 
share that with the parents for decisionmaking. We also 
recommended to districts that they not only do a notice to 
parents but additionally have meetings at the school level 
where parents could come and hear the providers share what they 
have to offer to help them make good decisions.
    There are some issues related to supplemental services that 
I would like to share. First with the cap of 20 percent for 
choice and supplemental services. It is very difficult to move 
forward fully with supplemental services as early as we would 
like because of the fact that we need to know first of all how 
much money is going to be spent on choice transportation before 
knowing how much is available for supplemental services.
    The per-pupil allocation. That has also been a concern area 
for us. In some districts it is the $800 or $900 amount that 
you are talking about. In larger districts it may be $1200 per 
child, but for some providers that still is not sufficient.
    We did find in the monitoring process some of the parents 
and some of the district staff are a little hesitant to talk 
about any of the concerns they may be having with supplemental 
services. There was concern for litigation issues.
    We have also recently faced a facilities issue, 
particularly in Greenville. Last year we had one instance and 
we resolved that problem in a rural site and they were able to 
move the provider services on to a community facility. But some 
of the districts will have a board policy possibly for concerns 
with liability issues that may cause us not to be a service 
onsite at the school. We are hoping to work with any of those 
providers who are having those issues in maybe helping them to 
find additional facilities where they may provide services.
    The rural areas. That is also a concern because the for-
profit providers are not going to find it cost effective--that 
is what we are hearing. Now we have looked at distance learning 
and thus far have not found distance learning to be the answer, 
because we have questioned some of the quality and privacy 
issues of the students. But we are still looking at those 
options.
    Minimum number of students for services. In some of our 
large districts, we are encountering problems with providers 
that agree to provide services and we anticipate things moving 
smoothly, but then learn they are limiting it to 50 to 100 
children that they must have in certain districts before they 
will be able to provide services.
    Mr. DeMint. We need to cut you off.
    Mrs. Rushing-Jones. That is fine.
    [The prepared statement of Mrs. Rushing-Jones follows:]

 Statement of Wanda Rushing Jones, Coordinator of the Federal Programs 
              Unit, South Carolina Department of Education

    Mr. Chairman and Members of the Committee, I appreciate this 
opportunity to testify before you today on the implementation of the 
school choice and supplemental services requirements of Title I of the 
Elementary and Secondary Education Act of 1965, reauthorized by the No 
Child Left Behind Act of 2001.
    I would like to share with you the State perspective on 
implementation of these provisions as they relate to South Carolina.
 Numbers of Schools in School Improvement for the 2002-03 School Year--
                                27 total
    Number to implement choice only--12 schools
    Number to implement choice and supplemental services- 15 schools
             School Improvement for the 2003-04 School Year
Preliminary School Improvement List and Parental Notification
    South Carolina, as many states, does not receive test information 
from the test contractor in sufficient time to allow a final school 
improvement list to be available prior to the start of school.
    Therefore, our State's accountability plan, as approved by the 
United States Department of Education (USDE), required the development 
of a preliminary school improvement list. The preliminary school 
improvement list was disseminated to districts on July 14, 2003. 
Districts and schools were required to proceed with notices to parents 
of choice and supplemental services options for the current school year 
based upon preliminary school improvement identification. Any school 
identified for improvement on the preliminary list, but not identified 
on the final school improvement list, was required to honor any 
commitments made to parents regarding choice and supplemental services 
which resulted from the school's preliminary school improvement 
identification status.
Final School Improvement List
    The districts and schools received final adequate yearly progress 
status charts based on the 2003 test results on August 28. Districts 
and schools were given time to review their data for accuracy. The 
final school improvement list was disseminated to districts on 
September 29. Schools and districts were given until October 8 to 
question their school improvement status. The school improvement list 
is currently being posted to the department's web site.
Number of Schools in School Improvement for the 2003-04 School Year--82 
                             schools total
    Number to implement choice only--59 schools
    Number to implement choice and supplemental services- 23 schools
  Dissemination of School Improvement Requirements to Local Districts
    <bullet> The law, regulations, and guidance documents are posted 
on the department's web site.
    <bullet> Districts are sent e-mail updates immediately upon 
receipt of any new interpretation of the law, guidance, or information 
obtained through attendance at conferences/USDE meetings.
    <bullet> Meetings have been held with districts. An initial 
meeting was held with all schools identified for improvement along with 
their district staff on April 23, 2002 to inform them of the new choice 
and supplemental services requirements, as well as the school 
improvement requirements. A follow-up meeting was held on February 20, 
2003 to discuss new information and issues related to implementation of 
these requirements.
    <bullet> Follow-up calls were made to each of the districts with 
schools identified for improvement on a bi-weekly basis for an extended 
period of months to determine the progress made in implementing both 
choice and supplemental services and to identify any areas of problems 
or concerns. Questions/issues were shared with the United States 
Department of Education for response as warranted.
    <bullet> Presentations were also made to districts at both a fall 
and spring conference to update them on new interpretations of the law.
    <bullet> A meeting was held May 15 and 16, 2003, with the first 
day being devoted to an overview of each component of the law, 
regulations, and guidance. The second day was spent in small group 
concurrent sessions providing hands-on activities and materials to 
assist the districts in implementing various new provisions of the law, 
specifically choice and supplemental services.
    <bullet> Districts were provided with sample contracts to use for 
supplemental services.
    <bullet> New draft guidance on supplemental services was received 
on August 22, 2003. A one-day meeting was held with all districts on 
September 23, 2003, to present the new guidance and to also discuss the 
process for school improvement plan development. At that time, 
information was also shared on how to complete a contract with 
supplemental service providers and parents.
    <bullet> A training for new Title I Coordinators is also held on 
an annual basis.
                             School Choice
    Process - As noted, districts were advised to notify parents of the 
choice option based upon the preliminary school improvement list. The 
recommended means of notice was by letter and newspaper, at a minimum.
    For the 2002-03 School Year:
    <bullet> Numbers of Students Eligible--11,744
    <bullet> Number of Students Opting for Choice--519
    <bullet> Number of Choice Option Schools--32
    For the 2003-04 School Year:
    <bullet> Number of Students Eligible--38,463
    <bullet> Number of Students Opting for Choice--1,345
    <bullet> Number of Choice Option Schools--81
                 Issues and concerns related to choice:
    School capacity - Although this is not an exemption for choice, it 
still poses a problem that must be considered.
    Need for additional staff at receiving schools--With limited State 
and local resources, it is difficult to accommodate the staff needs of 
the students opting to transfer. Many of the transfer option schools 
are not receiving Title I funds.
    Concern for comparability among schools - Will the addition of 
staff for choice students result in the district not being able to meet 
comparability requirements under Title I of the law, whereby state and 
local resources must be demonstrated to be at least comparable on a per 
pupil expenditure or instructional staff per pupil ratio basis between 
Title I and non-Title I schools, or if all schools are Title I served, 
then among all Title I schools?
    Transportation--Although most of our districts have been able to 
establish new bus routes within their current system of operation, 
Greenville has been unique in having to lease buses to establish new 
routes. A response was received from USDE, after much deliberation, 
that a bus could be purchased for transporting choice students. 
However, issues for consideration were shared by USDE staff. The issues 
were:
        <bullet> How will transportation be supplementary to the 
        mileage the child would have been entitled to at his regular 
        school; and
        <bullet> If there is no longer a need for choice 
        transportation, how will the district dispose of the bus?
    This information was shared with the district for their 
consideration.
                         Supplemental Services
                      For the 2002-03 School Year:
    <bullet> Number of Applications Received: 58
    <bullet> Number of Approved Providers: 30
    <bullet> Number of Approved Providers for Greenville: 5
    <bullet> Number of Students Eligible for Supplemental Services 
Statewide--9,662
    <bullet> Number of Students Statewide Receiving Supplemental 
Services: 297
                      For the 2003-04 School Year:
    <bullet> Number of Applications Received: 64
    <bullet> Number of Approved Providers: 25
    <bullet> Number of Approved Providers for Greenville: 6
    <bullet> Number of Students Eligible for Supplemental Services 
Statewide--30,921
    <bullet> Number of Students Statewide Receiving Supplemental 
Services: Yet to be Determined (Parent meetings and contracts are 
underway.)
    The South Carolina approval process for providers is an annual 
requirement. The rationale for this decision was to ensure the approval 
of quality applications. As we have learned more about the requirements 
of supplemental services and the challenges presented with 
implementation, we have tried to refine the application, rubric for 
scoring applications, and the monitoring process to address these 
issues.
              Monitoring of Supplemental Service Providers
    All approved providers for the 2002-03 school year that provided 
services to students eligible under this law were monitored. The 
monitoring instrument and technical standards were shared with the 
provider prior to the review. The monitoring was conducted by a team of 
individuals who brought their own expertise to the group. The knowledge 
base of the group included knowledge of the law, knowledge of state 
content standards, curriculum, and assessments, and/or experience in 
the process of audits, including both programmatic and fiscal. The 
monitoring was initially conducted by phone interview with the 
provider, parents and students served by the provider (to the extent of 
their availability), and district Title I coordinators in districts 
where services were rendered. A need was also seen for on-site visits 
to the providers to review instructional materials and instructional 
delivery.
    Monitoring included a review of compliance with the approved 
application, the contract with the parent and district, the integrity 
of the provider, satisfaction of parents and students, as well as other 
critical issues. The effectiveness of the provider was not reviewed 
this past year since the period of service delivery was limited, as a 
result of the mid-year implementation allowed by USDE.
    The monitoring results were posted on the department's web site. 
Also, monitoring issues were taken into consideration in the new round 
of application reviews for approval of providers.
         Dissemination of Information to Providers and Parents
    Districts were asked to discuss the requirements of the law for 
supplemental services with the providers.
    General information regarding the law, regulations, and guidance 
was shared with providers in the mailing by the State notifying them of 
their status as a State-approved provider.
    Information has also been posted on the State department's web site 
for providers and parents to reference.
    Districts were encouraged to go beyond notifying parents of the 
opportunity for supplemental services. It was recommended that they 
hold meetings at the school level to allow parents to hear 
presentations from the approved providers prior to making a selection 
of a provider for their child.
    This year as part of the application process, the State required a 
one-page summary of the provider's services, qualifications, and 
demonstrated effectiveness, as required to be disseminated to parents 
to aid them in making their selection of provider. This summary page 
was lifted directly from the application of all approved providers and 
was shared with districts for dissemination to parents.
    To date, districts have begun the supplemental services process. 
Greenville, for example, has notified parents of their supplemental 
services option and they are currently holding school meetings to share 
with parents the services of providers, thereby enabling parents to 
make informed decisions.
                Issues Related to Supplemental Services
    Delay of implementation due to choice - As the law is written, the 
percent of funds set-aside to implement choice transportation must 
first be determined in order to know how much is available to fund 
supplemental services. This often delays the implementation of 
supplemental services.
    Per pupil allocation - Many providers have expressed concern about 
the formula used for determining the per-pupil cost rate for the 
provision of supplemental services. For-profit providers are often not 
willing to provide services for $800 or $900 per child, which is often 
the amount available in our State.
    Limited willingness to participate in monitoring - We found that 
many district staff and parents were hesitant to discuss with us 
problems/concerns with providers for fear of a legal challenge from the 
for-profit providers.
    Use of school facilities - Greenville, for example, has a Board 
policy that prevents the use of school facilities by outside groups 
after school. Although we have encouraged districts to cooperate with 
providers on facility use, and we have shared with them the option to 
charge rent of providers, districts are reluctant to allow the use of 
their space, often due to liability concerns. One provider has 
indicated already that they will not provide services in Greenville 
since they cannot offer their services on-site. Another provider has 
expressed a similar concern, however, they are attempting to look for a 
community partner to house their services. Last year, we had once such 
instance in one of our rural areas. As we worked with the provider, 
they were able to rent a community space where they could offer 
services. We are in the process of contacting the providers that are 
having difficulty finding space to see how we might assist them. 
Further, we plan to consider including some additional reference to 
this in our application.
    Providers for rural areas--Only a limited number of providers are 
willing to work in rural areas. The for-profit providers do not feel it 
is cost efficient for them to travel to those areas. Thus far, distance 
learning has not been a solution to this problem. Based on our prior 
year's monitoring, we have concerns about both quality of services and 
privacy of students with distance learning. However, we are still open 
to appropriate distance learning options.
    Minimum number of students for service - In some of our large 
districts, we are encountering problems with providers that agree to 
provide services, but then refuse to go into the district unless they 
can provide services to a minimum number of students. Our office tried 
to address this problem through the application process this past 
review cycle, but we are already beginning to see this issue surface 
again.
    Required set-aside of funds for choice and supplemental services - 
Many districts are concerned about having to withhold up to 20 percent 
of their Title I funds for choice and supplemental services. Although 
we have shared with them our most recent information from USDE which 
allows them to reallocate the funds around early November after they 
have implemented these components of the law, it is difficult for the 
district to reallocate those funds in a meaningful way to benefit their 
schools at that time. It is too late to consider serving additional 
schools. In the recent guidance on supplemental services, a provision 
allows the use of other fund sources to meet the 20 percent 
requirement. This information was shared with districts at a meeting 
last month. The provision may offer relief for some districts, but not 
all because state and local funds are limited. Additionally, districts 
are faced with having to expend Title I funds in a timely manner in 
order to meet the 15 percent carryover provision of the law. Failure to 
meet this requirement will result in the loss of any excess funds above 
the allowed 15 percent.
    In closing, South Carolina initiated implementation of supplemental 
services and choice based upon our best knowledge and understanding of 
the law. We have worked through many of the issues related to choice, 
and we are anxiously awaiting the release of new guidance on choice in 
hopes that it will offer further insight into implementation. As for 
supplemental services, we began the process with a three page 
application for providers, based solely on the law. Now, we have a 
comprehensive 15 page application which reflects the latest guidance 
and seeks to address some of the issues that surfaced in our initial 
implementation of supplemental services. There are many issues that we 
are only beginning to learn about, and we are facing each new challenge 
as a learning opportunity that will help us to better serve our 
children.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions you or the other Members may have.
                                 ______
                                 
    Mr. DeMint. Thank you for your input. We will get back to 
you with questions in just a moment. Thank you.
    I now want to introduce Dr. Bill Harner. He is currently in 
his third year as the Superintendent of Schools--Greenville 
County Schools--
    Dr. Harner. Congressman, fourth year.
    Mr. DeMint. Fourth year.
    Dr. Harner. Time goes by.
    Mr. DeMint. This is an old resume. OK, Greenville County 
School District is the 64th largest school district in the 
Nation and the largest school district in South Carolina. Dr. 
Harner retired from the U.S. Army in 1998 as a lieutenant 
colonel and later become a faculty member at the United States 
Military Academy at West Point serving as a cadet performance 
counselor, a leadership in character education instructor and 
an aide de camp of the superintendent at West Point. Dr. 
Harner.

  STATEMENT OF WILLIAM E. HARNER, SUPERINTENDENT, GREENVILLE 
                         COUNTY SCHOOLS

    Dr. Harner. Good morning, Congressman DeMint and welcome to 
Greenville, Congressman Carter. It is a lovely place. I 
understand you came here last evening. Hopefully you will get a 
chance to get around and see our county and the upstate. It is 
gorgeous. Also, welcome to Greenville County public schools.
    In Greenville County, as the Congressman talked about, we 
have 63,000 students--a little bit over 63,000 students in 90 
schools and centers. About 30 percent of our students come from 
poverty as prescribed by Title I provisions. Also here at 
Brushy Creek, this is--as you can tell, it is a relatively 
brand new school. I think we are in our second full year of 
operation. Before it was a brand new school when it was on the 
property right where the parking lot is, it was awarded the 
National Blue Ribbon of Excellence as a Blue Ribbon school. It 
is an excellent school on the state report card and also most 
recently made AYP. One of 14 schools in Greenville County, 
about 22 percent of our elementary schools. We have 50 
elementary schools in the county.
    This morning you asked me to talk about the No Child Left 
Behind Act, and specifically school choice and supplemental 
services and how those provisions of the Act are affecting 
Greenville County schools.
    First off, choice is not a foreign concept to Greenville 
County. We have had prior to the No Child Left Behind Act 8200 
students on school choice prescribed through magnet school 
programs and parent options to go to--have their child in 
another school.
    Also, prior to the No Child Left Behind Act three of the 12 
charter schools in South Carolina were approved by the Board 
and are in Greenville County. That is 25 percent right now, and 
the Board last month approved two more charter schools. So we 
will have a little bit more than 25 percent. So school choice 
is rife and well-supported by the Board of Trustees in 
Greenville County along with the No Child Left Behind Act.
    Last year, the first year we were required to offer school 
choice under the Federal provisions, we had four schools 
identified, two elementary and two middle schools--Hollis, 
Monaview Elementaries, Lakeview and Parker Middle. We were 
required to offer choice of those schools. Of the 1600 possible 
students eligible to transfer from these four schools only 140 
students exercised their option and went to other schools 
within the district. Our spirit and intent of following the 
provisions of No Child Left Behind Act are to offer excellent 
schools. So they are--we offer those schools at both the 
elementary and the middle level.
    This year four more schools were identified, so now we have 
a total of eight. They are three more elementary schools and 
one middle school, Cone/San Souci, East North Street, Sirrine 
Elementary School and Tanglewood. I would like to note that at 
East North Street, it is a magnet school for the science and 
technologies. When I arrived in the county, they only had 13 
magnet students. This year they have over 200 magnet students 
that are opting into this Title I school.
    Also, at Tanglewood Middle School--which thank you to the 
Education Committee--it received a $778,000 grant for the arts, 
which integrated the arts through the curriculum at Tanglewood. 
It went from a student population--or a teacher population of 
27 percent content trained to 85 percent content trained, and 
this past year on the pact--in the math pact they had a 16-
percent growth for sixth graders, 20 percent for the seventh 
graders and 14 percent growth for the eighth graders. The 
school district average increase was 5.3 percent and the state 
growth, I believe, was right around 4 percent for math. I am 
checking my numbers with the state.
    Of the about 3000 students eligible for school choice this 
past year, 228 have opted to attend another school in addition 
to the students continuing from the first year. What we are 
also finding is a lot of students are going back to their home-
base school because of all the services that we offer at the 
home-base school, the Title I school, versus the excellent 
school.
    Transportation. To transport these students last year we 
spent approximately $30,000. This year the costs are estimated 
to be a little bit more than $80,000, and that is for leasing 
four buses. We would like to purchase buses using Title I 
funds, as you heard from Wanda a little bit ago. However, the 
State Department of Education has advised that the Federal 
regulations do not allow this, by the way. I just heard this 
modification, so I am excited. In addition, Title I funding for 
transportation can only be used for mileage for transporting 
choice students from their base school to the receiving school. 
We would like this mileage to be payable from the bus driver's 
point of origination. It is not feasible for choice students to 
travel via a regular bus route to their base school and then be 
transported to their choice school via Title I bus route, 
because it puts the student on the bus probably double the 
time, if not more.
    Receiving schools. About the schools receiving choice 
students such as Brushy Creek here, additional resources for 
choice students such as class size reduction efforts or 
supplemental support materials cannot be funded through Title I 
for non-Title I schools receiving transferring choice students. 
Yet the receiving schools are the ones facing the challenge of 
helping transferring students to achieve better results than 
they had at their home-base school. The No Child Left Behind 
Act provides no resources to assist the former Title I students 
who elect to transfer, and that is something that we have 
talked to Congressman DeMint and other members of our South 
Carolina delegation about, asking for flexibility.
    What we have in Greenville County, the operating dollars, 
the local and state dollars that fund our operating costs, 
travel with the student and the Title I dollars stay at the 
home-base school. One thing we would like is to have that 
flexibility.
    This year none of our middle schools met AYP. None of our 
middle schools met AYP, though we have one excellent middle 
school and several good middle schools. Even the school that 
fed the middle school that fed into Riverside High School which 
has the top SAT score in the state--the average for the past--
the class of 2003, it did not make AYP. As a consequence of 
this, we faced a future possibility of not having receiving 
school options for middle grades. Next year there will not be 
any choice options to students because we do not have any 
schools that made AYP at the middle school level. With 
neighboring districts in the same shape, they are not in any 
position to help us through an agreement for choice. With no 
receiving schools available, each Title I middle school student 
in Greenville County will eventually have to be offered 
supplemental services. This is an issue more tied to AYP, which 
is a topic obviously not for today.
    Supplemental services. Last year in the first year of 
offering supplemental services notices were mailed to parents 
of the approximate 1600 students in those four schools. 
Participation by parents selecting supplemental services were 
minimal at best. Although a core group initially responded, 
only four student continued in the program from its inception 
until the end of the school year.
    Mr. DeMint. Dr. Harner, I need to ask you to wrap up in 
just a few seconds and we will get back to you. We are over 6 
minutes.
    Dr. Harner. OK, sir. Thank you, sir.
    Notice to parents. We believe we have gone more than the 
spirit and the intent of the No Child Left Behind Act. Our 
communications is in writing. It is through the media, through 
advertisements.
    I guess I will just close it there. We have already 
submitted our statement. Thank you, sir.
    [The prepared statement of Dr. Harner follows:]

 Statement of Dr. William E. Harner, Superintendent, Greenville County 
                                Schools

    <bullet> Good Morning. I'm Dr. William Harner, Superintendent of 
Greenville County Schools. It's good to see you, Congressman DeMint. 
Congressman Carter, welcome to Greenville. And welcome, both of you, to 
Brushy Creek Elementary.
    <bullet> This morning you've asked me to talk to you about the 
Choice and Supplemental Services components of No Child Left Behind and 
how those provisions of the Act are playing out in Greenville County 
Schools.
CHOICE
    <bullet> Background . . .
        <bullet> Last year--the first year we were required to offer 
        choice, we had 4 schools--2 elementary and 2 middle--(Hollis, 
        Monaview, Lakeview, Parker) required to offer choice.
        <bullet> Of about 1,600 students eligible to transfer from 
        these 4 schools, approximately 140 exercised their option and 
        went to other schools in the district.
        <bullet> This year, we have 8 schools offering choice--the 
        four from last year, plus 3 more elementary and 1 more middle 
        (Cone/San Souci, E. North Street, Sirrine, Tanglewood).
        <bullet> Of about 3,000 students eligible for choice this 
        year, 228 have opted to attend another school.
    <bullet> Transportation . . .
        <bullet> To transport these students last year, we spent 
        approximately $30,000. This year, those costs are estimated to 
        be more than $80,000. That is for 4 bus leases.
            <bullet> We've requested permission from the State 
            Department of Education to purchase a limited number of 
            buses to be used specifically for choice transportation, 
            but federal regulations have prevented us from doing so.
            <bullet> This is important to us . . . a child exercising 
            his legal right to choose another school should not be 
            forced to spend hours on a bus going to and from school 
            each day. Clearly this is not in a child's best interest 
            and does not fulfill the academic purpose of NCLB.
    <bullet> Receiving schools . . .
        <bullet> About the schools receiving choice students . . . 
        Additional resources for choice students, such as class size 
        reduction efforts or supplemental support materials, cannot be 
        funded through Title I for non-Title I schools receiving 
        transferring choice students. Yet, the receiving schools are 
        the ones facing the challenge of helping transferring students 
        to achieve better.
            <bullet> NCLB provides no resources to assist former Title 
            I students who elect to transfer to non-Title I schools.
            <bullet> Flexibility of Title I funding does not address 
            this issue.
            <bullet> One thing we'd like to see done which would help 
            these receiving schools would be to allow Title I funds to 
            follow teachers excessed from Title I schools.
    <bullet> This year, none of our middle schools met AYP, even 
though many of them have earned state and national academic 
distinctions.
        <bullet> As a consequence of this, we face the future 
        possibility of not having receiving school options for middle 
        grades.
        <bullet> With neighboring districts in the same shape, they're 
        not in any position to help us out through an agreement for 
        choice.
        <bullet> With no receiving school available, will each middle 
        school student in Greenville County have to be offered 
        supplemental services?
            <bullet> This is an issue more tied to AYP . . . which is 
            a topic for another day. But it is something that must be 
            addressed.
SUPPLEMENTAL SERVICES
    <bullet> Last year, in the first year of offering supplemental 
services, notices were mailed to parents of approximately 1,600 
eligible students (Hollis, Monaview, and Parker).
    <bullet> Participation by parents selecting supplemental services 
was minimal, at best.
        <bullet> Although a core group initially responded, only 4 
        students continued in the program from its inception to the end 
        of the school year.
        <bullet> We believe this low participation was due to several 
        factors, including:
            <bullet> The newness of NCLB and late start in the school 
            year;
            <bullet> The fact that our schools already offer many 
            programs through the state Education Accountability Act, 
            Title I, fee-based and local community partnerships;
            <bullet> The fact that except for fee-based programs, all 
            are provide free to the parents; and
            <bullet> The fact that after school programs are 
            convenient. Parents do not have to provide transportation 
            (but they do for supplemental services). ``After school'' 
            programs are just that--after school. Supplemental services 
            often occur in the late afternoon or early evening.
        <bullet> Last year, providers included Sylvan, Communities in 
        Schools, City of Greenville Recreation Department and Cyber 
        Study 101.
            <bullet> Of these providers, this year, only Sylvan 
            reapplied to be a provider.
            <bullet> Greenville County Schools is also an approved 
            provider this year. Others include the Learning Academy of 
            Fountain Inn and Sylvan.
            <bullet> Out-of-state providers dropped out because of 
            lack of local company contacts or because of facility 
            needs.
NOTICE TO PARENTS
    <bullet> The title of your presentation asks: Are states and 
school districts giving parents the information they need?
    <bullet> I believe Greenville County Schools is giving far more 
than they need; in fact, I don't believe there is anything more we can 
do to notify parents of their right to choice or supplemental services.
        <bullet> Last year, we mailed approximately 1,600 notices of 
        supplemental services to parents of 3 schools required to offer 
        the services.
            <bullet> Additionally, the district advertised the 
            availability of supplemental services in the newspaper, on 
            the Internet, and on the school district's cable TV 
            channel.
            <bullet> Principals also advertised the availability of 
            services.
            <bullet> On 4 different dates in March and April, meetings 
            were held at the district's central office and at schools 
            with parents, school personnel and providers. (Late start 
            last year due to it being the first year NCLB required 
            supplemental services. The district took action as 
            information was shared with it.)
        <bullet> This year, just a couple of weeks ago, approximately 
        1,600 notices went out. (Schools: Hollis, Monaview, Parker, + 
        Lakeview)
            <bullet> Official notice packets were mailed in English 
            and Spanish.
            <bullet> Principals are also using Phone Master, flyers 
            and marquee announcements to inform the public.
            <bullet> Last week, we had a paid public notice in the 
            Greenville News listing all the locations and times of 
            meetings.
            <bullet> Announcements are on the web and district TV 
            again this year.
            <bullet> We've already had 4 Title I parent and provider 
            meetings: two on October 13th and two on the 16th.
            <bullet> We have one scheduled for tomorrow evening 
            (Hollis), and one for next Tuesday (Parker).
            <bullet> At these meetings, providers of supplemental 
            services are available to explain their methods of 
            delivering services.
    <bullet> Are we giving parents enough information?
        <bullet> I want to share with you our experience at one school 
        offering supplemental services. (Lakeview)
            <bullet> At a meeting on supplemental services scheduled 
            for October 13th, 1 parent showed up. At a 2nd meeting 
            later that evening, 5 were there.
            <bullet> Because the school had received phone calls 
            inquiring about the notification letter, however, a 3rd 
            meeting was planned.
            <bullet> This meeting will be at the school's PTA dinner 
            meeting tomorrow night.
        <bullet> Are we doing enough?
            <bullet> We will hold as many meetings as needed at each 
            school to inform parents and address their concerns.
            <bullet> Our philosophy is to go beyond the law's 
            requirements to inform parents.
            <bullet> However, supplemental services is not a new 
            concept to Greenville County Schools: for some time, we 
            have had in place many programs that offer services for 
            students as well as parents.
            <bullet> We're giving everything a parent needs to 
            consider in order to determine what is best for their 
            child. And many of those parents are determining that the 
            school their child is in--the very one that has not met AYP 
            and thus, been labeled ``failing'' by the media--is the one 
            that has the most resources--financial and people--to help 
            their child achieve his or her best.
    <bullet> Our biggest issue: the late notice school districts 
receive from the state on which schools are required to offer choice 
and supplemental services.
DO I BELIEVE NO CHILD LEFT BEHIND IS WORKING?
    <bullet> Greenville County Schools is committed to the academic 
excellence and overall well being of every child.
    <bullet> And to the extent that No Child Left Behind helps us to 
achieve these goals, we applaud No Child Left Behind.
    <bullet> We have a lot of concerns about tomorrow . . . where 
we'll be as the requirements continue to ratchet up. But we will 
continue to do all that we can with what we have--trying to be creative 
in order to get the most bang for our buck--to meet those goals.
                                 ______
                                 
    Mr. DeMint. OK. We will get back to you.
    Now, I would like to move to Mr. Waggoner. Mr. Waggoner is 
the father of six children. His youngest daughter, Jessica, is 
a sixth grade student in her second year of experience public 
school choice. Mr. Waggoner is a retired technology sergeant 
from the United States Air Force and has recently returned to 
school to further his skills in computer networking and 
technology.
    Mr. Waggoner.

 STATEMENT OF GEORGE WAGGONER, PARENT, RETIRED TECH SERGEANT, 
                         U.S. AIR FORCE

    Mr. Waggoner. Well first, I would like to say it is just an 
honor to be here among all of these great minds and just to see 
the effort from the Federal level down to the state and the 
county. It is wonderful.
    Last year Jessica had a choice to change from Hollis 
Elementary to Armstrong Elementary. That change was great for 
Jessie. We enjoyed it and she enjoyed it. Mrs. Baker was her 
teacher and really knows her stuff, just phenomenal.
    This year Jessica would have gone to Parker Middle, but we 
did have a choice of Riverside or Northwood Middle. My wife 
Linda and I went to both schools to see how they looked. The 
day we received the notification, as a matter of fact, our 
daughter was out of town that weekend. Then when she got back, 
we took Jessie to both schools and we even had a tag-along, 
Channel 7 was with us. So we had a little notoriety also.
    This year we did want Jessica to have a say as far as which 
school. Last year we thought she was so young that we made the 
decision for her. So because she is 11 years old and going into 
sixth grade, we thought that would be good.
    All three of us, my wife, I and her picked Northwood 
Middle. It seemed to be, first, the closest. Also, it just 
seemed to be the--I will put it this way, the friendliest as 
far as the teachers, staff and all of those. She takes a bus to 
school. One of the things that we had a concern about was how 
long the bus ride would be. When they have to get up at four or 
five in the morning to catch a bus at six to get to school it 
starts getting to be a pretty long day. Not to slam the school 
district too much, but the first 2 weeks she got home at 7 p.m. 
The first day I had to even threaten to call the sheriff 
because I did not know where my daughter was.
    The first week, we took her to school four out of the 5 
days. The bus somehow missed us. They did get another bus from 
Columbia and now she gets home before five o'clock. So that was 
a concern. It is much better now.
    One of the interesting things about all of this was Cindy 
Landrum, I received a call from her. She works for the 
Greenville News. This was 2 years ago. And she wanted to know 
what my wife and I thought about the possibility of our 
daughter going from Hollis to a different elementary school. We 
had not hear anything about it. Finally we got a notification a 
couple of weeks later. One of the things that seems to be a 
problem still is the way the school district does the 
addresses. We do not get all of the correspondence. We missed 
both open house greetings. We got to go to the open houses, but 
it was because of Cindy, not because of the letters that we did 
not get. We are not really sure why that happens. I have got 
here that it might be the Jutson Mill after our 4th Avenue, 
since there are about four 4th Avenues in Greenville. Somehow 
they cannot find us all the time.
    I put we want every parent--or we want what every parent 
wants for their children, good schools with great teachers. 
Most of the schools out there are that. A little footnote. I 
think a lot of the time that the school does not get rated as 
well, it has to do with a language barrier problem more so than 
any learning disability. So that is something that they 
probably need to contend with all the way up to the Federal 
Government area.
    I would like to see 20 students or less per class. I think 
all of us would as parents. With the budget cuts, again, I know 
that is really tough. So I just have to say that I think our 
school districts are doing phenomenal for what they are working 
with.
    I put that I think this program is working and to hold the 
schools and teachers and the students accountable is incredible 
and wonderful and needs to happen.
    I would like Jessie to attend college and feel good about 
her education and herself. She has asked why South Carolina is 
almost last in the Nation with test scores. She seen that on TV 
and said what does that mean for me? What will that do down the 
road?
    If I have time, it says, as a side note, my mother is dying 
from lung cancer, she lives in California. I would like to go 
out there and be with her for her last final days. I do not 
know how long that will be. My wife would like to come along so 
we could still be part of a family. We do not feel that we 
could transfer our daughter, Jessica, out there for any length 
of time because she would have to drop back either one or two 
grades, because of the school system differences. That would be 
nice to have rectified. So if it happens, I will have to go 
live out in California probably for 6 months without my family 
being there.
    But this is to say that Jessica does get better choices in 
the school she attends. And I said, could we have the 
information sooner? I certainly hope so. Can the school 
district get my address correct? I do not know. It would be 
nice. The neat thing is, the test scores are going up every 
year. So thank you.
    [The prepared statement of Mr. Waggoner follows:]

  Statement of George L. Waggoner, Parent, Greenville, South Carolina

    Last year Jessica had the choice to change from Hollis Elementary 
to Armstrong Elementary School. That change was great for Jessie. Mrs. 
Baker was her teacher and really knows her stuff.
    This year Jessica would have gone to Parker Middle School, but we 
had a choice of Riverside or Northwood Middle. My wife Linda and I went 
to both new schools to see how far away and how they looked. We 
received the notice on a Saturday and our daughter was out of town. We 
then went with Jessica to both schools and talked to teachers and had a 
tour of each school. We wanted Jessie to have a say this year, as she 
is now 11 years old and going into sixth grade.
    We picked Northwood Middle School as the best and closest school. 
Jessie takes the bus and the first two weeks she got home about 7 pm 
and they missed picking her and another girl up 4 out of 5 days the 
first week in the morning. They got another bus from Columbia and now 
she gets home about 5 pm or sooner.
    I received a call from Cindy Landrum who works for the ``Greenville 
News'' and had a list of children who were getting a chance to change 
schools, and wanted to know what Linda and I thought about that. That 
was about one week before we received any notification from the school 
district last year and again this year. She also told us about the open 
house that we never got any news about. When we talked to Mrs. Goggins, 
the Armstrong Elementary School principal at the open house she said 
our notice came back to the school. That is when we found out the 
school district will not use our correct address, and sometimes we 
don't get what they send out. Something about the ``Judson'' after 4th 
Ave. Greenville has 4 4th Ave. so it can be a problem for the mail.
    We want what every parent wants for there children!! Good schools 
with great teachers. About 20 students or less per class would be 
great. And enough resources to help during the rough times. Jessie 
needed help in math and got tutored twice a week for a while with 
Furman students and Mrs. Baker.
    I think the program is working, to hold schools and teachers and 
students accountable!!!
    We would love for Jessie to attend college and to feel good about 
her education and herself. She has asked why South Carolina is almost 
last in the nation with the test scores, and what that will do to her 
down the road.
    As a side note, my mother is dying from lung cancer and lives in 
California. I want to be with her in her final days. My wife would come 
along too, but we know if we transferred Jessica out there, she would 
be placed in 4th or 5th grade. The schools are ``advanced'' there. I 
will go live in California, and the rest of the family will stay 
here!!!
    All this is to say we are very excited that Jessica does get better 
choices in which school she attends. Could we have the information 
sooner? I would hope so! Can the school district get my address 
correct? Maybe! I think they are doing a good job. The test scores are 
going up each year.
    Thank you.
                                 ______
                                 
    Mr. DeMint. Mr. Waggoner, thank you so much for your 
testimony.
    Now we will move to Dr. Dana Jeffrey. Dr. Jeffrey is the 
Vice President of Sales at Lightspan, a supplemental service 
provider approved by the state of South Carolina. Previously 
Dr. Jeffrey was the Executive Director of the Human Resource 
Services and Organizational Development for Adams County School 
District 50, a major urban/suburban school district in 
Colorado. Dr. Jeffrey has over 23 years of experience in the 
education field as a teacher, district curriculum and public 
relations coordinator and district administrator.
    Again, I remind our witnesses to try to keep it to around 5 
minutes. So, Dr. Jeffrey.

 STATEMENT OF DANA JEFFREY, VICE PRESIDENT OF STRATEGIC SALES, 
                           LIGHTSPAN

    Dr. Jeffrey. Congressman DeMint, Congressman Carter, thank 
you very much for the opportunity to testify on this important 
subject today.
    My name is Dana Marie Jeffrey and I am here today as a 
representative of Lightspan, Inc., an approved supplemental 
educational services provider for South Carolina and 23 other 
states as of this date. We are pleased to have the opportunity 
to work with schools throughout the United States in providing 
a comprehensive program for supplemental educational services. 
Our model includes tutorial services and program management 
using the same curriculum and instructional resources provided 
to more than 4700 elementary schools using Lightspan content in 
the classroom and in students' homes to support student 
achievement.
    In the same way we provide professional development and 
training to teachers and paraprofessionals during the regular 
school day we also provide the exact same to private tutors, 
faith-based organizations and school districts using our 
content to deliver supplemental educational services. When we 
decided to enter this sector, we purposefully implemented a 
service delivery model that would embrace community-based 
organizations engaged in meeting the needs of eligible students 
as part of this important initiative.
    As a service provider we are dependent upon cooperation 
from the local education agency to utilize school-owned 
facilities since we do not have available to us across the 
Nation storefront facilities to which parents can bring their 
children for tutoring. And even if we did, the local school is 
generally the most convenient for parents as well, thus 
becoming an important consideration in our serve delivery 
model.
    Over the 10 years of our existence, Lightspan has a 
tradition of extensive parent communication and training 
associated with our program delivery. Lightspan has worked with 
parents since our founding. Thus, it was a natural for us to 
become a provider of supplemental educational services. With 
each program delivery we work closely with the school district 
and local school staff to ensure that the program supports 
local learning priorities of the regular school-day program and 
that the delivery of services will be provided according to a 
schedule that will most effectively utilize school resources 
and facilities.
    We also provide local education agencies with 
communications that explain Lightspan's program for parent 
review in selecting providers. And, in fact, we have even 
assisted local school districts in developing communication 
pieces to promote the availability of supplemental educational 
services.
    In addition, Lightspan continually strives to involve 
partners in the delivery of services at the local school site 
or in locations such as after-school centers, churches or other 
approved locations. These alternatives ensure the opportunity 
to offer quality programming as close to home as possible, 
making it possible for parents without reliable transportation 
to be able to again gain access to the tutoring program. As an 
experienced educational services provider, we recognize the 
importance of not only providing engaging learning activities 
that are individualized to meet the needs of each child, but 
also providing services that extend the learning day in the 
most convenient way possible.
    Lightspan's supplemental educational services programs are 
research-based, one of the major requirements of the 
legislation. We have more than 1000 school-based case studies, 
including a series of scientifically based longitudinal studies 
conducted by independent evaluators demonstrating Lightspan's 
success in providing programs that support increased student 
achievement.
    Finally, we hire qualified tutors locally for each program, 
ensuring that all tutors are experienced educators. Again, this 
is an important requirement of the legislation.
    As noted earlier, Lightspan has been approved in 24 states, 
including the District of Columbia, as of this date for 
supplemental educational services. We have yet to be approved 
in the remaining states, although we have applications 
currently under review for approval in six additional states. 
While for the most part we have been satisfied with the 
approval process in the states, I must note with a certain 
amount of puzzlement that requirements for approval are 
inconsistent from state to state--despite the fact that most 
states utilize a common application as the basis for their 
state-specific application, and Lightspan answers to the same 
questions on each application.
    Local decisionmaking is an important consideration for all 
providers in designing and delivering services. Lightspan does 
not have a one-size-fits-all model. For example, we are 
currently working with at least five to seven districts in the 
state of South Carolina alone to identify and define possible 
implementations to meet local needs. We have designed our 
programs and services to meet the rigorous review of each state 
in the nation, and having been approved in 24 states, we would 
argue that we are a proven model and should be approved in the 
remaining 26.
    We are pleased to be offering programs and services in the 
supplemental educational services arena, as yet another way in 
which Lightspan may work with local school districts to meet 
the needs of underachieving students. Intensive tutorial 
support designed to provide supplemental services support for 
each student, coupled with proven instructional tools and 
training for the classroom teacher provides the most effective 
investment in quality schools.
    [The prepared statement of Dr. Jeffrey follows:]

   Testimony of Dana Marie Jeffrey, Ph.D., Vice President, Strategic 
                         Sales, Lightspan, Inc.

    Congressman DeMint and Congressman Carter:
    Thank you very much for the opportunity to testify on this 
important subject today. My name is Dana Marie Jeffrey and I am here 
today as a representative of Lightspan, Inc., an approved Supplemental 
Educational Services provider for South Carolina and 23 other states as 
of this date.
    We are pleased to have the opportunity to work with schools 
throughout the United States in providing a comprehensive program for 
Supplemental Educational Services. Our model includes tutorial services 
and program management using the same curriculum and instructional 
resources provided to the more than 4,700 elementary schools using 
Lightspan content in the classroom and in students'' homes to support 
teachers'' delivery of educational services. In the same way we provide 
professional development and training to teachers and paraprofessionals 
during the regular school day, we also provide the exact same to 
private tutors, faith-based organizations, and school districts using 
our content to deliver Supplemental Educational Services. When we 
decided to enter this sector, we purposefully implemented a service 
delivery model that would embrace community-based organizations engaged 
in meeting the needs of eligible students as part of this important 
initiative.
    As a service provider, we are dependent upon cooperation from the 
local education agency to utilize school-owned facilities since we do 
not have available to us across the nation storefront facilities to 
which parents can bring their children for tutoring. And, even if we 
did, the local school is generally the most convenient for parents as 
well, thus becoming an important consideration in our service delivery 
design. Over the 10 years of our existence, Lightspan has a tradition 
of extensive parent communication and training associated with our 
program delivery. Lightspan has worked with parents since our founding. 
Thus, it was a natural for us to become a provider of Supplemental 
Educational Services. With each program delivery, we work closely with 
the school district and local school staff to ensure that the program 
supports local learning priorities of the regular school program and 
that the delivery of services will be provided according to a schedule 
that will most effectively utilize school facilities. We also provide 
local education agencies with communications that explain Lightspan's 
program for parent review in selecting providers. And, in fact, we have 
even assisted local school districts in developing communications 
pieces to promote the availability of Supplemental Educational 
Services.
    In addition, Lightspan continually strives to involve partners in 
the delivery of services at the local school site or in locations such 
as afterschool centers, churches, or other approved locations. These 
alternatives ensure the opportunity to offer quality programming as 
close to home as possible making it possible for parents without 
reliable transportation to be able to gain access to the tutoring 
program. As an experienced educational services provider, we recognize 
the importance of not only providing engaging learning activities that 
are individualized to meet the needs of each child, but also providing 
services that extend the learning day in the most convenient way 
possible to ensure that students--and parents--take advantage of 
extended opportunities for learning.
    Lightspan's Supplemental Educational Services programs are 
research-based, one of the major requirements of the legislation. We 
have more than 1,000 school-based case studies, including a series of 
scientifically-based longitudinal studies conducted by independent 
evaluators, demonstrating Lightspan's success in providing programs 
that support increased student achievement, another important 
requirement of the legislation incorporated in state applications. 
Finally, we hire qualified tutors locally for each program, ensuring 
that all tutors are experienced educators. Again, this is an important 
requirement of the legislation designed to ensure quality program 
delivery.
    As noted earlier, Lightspan has been approved in 24 states, 
including the District of Columbia, as of this date for Supplemental 
Educational Services. We have yet to be approved in the remaining 
states although we have applications currently under review for 
approval in six states. While for the most part we have been satisified 
with the approval process in the states, I must note with a certain 
amount of puzzlement that requirements for approval are inconsistent 
from state to state, despite the fact that most states utilize a common 
application form as the basis for their state-specific application and 
Lightspan answers to the same questions do not vary from state-to-
state.
    Local decision making, both at the state level and the school 
district level, regarding Supplemental Educational Services is an 
important consideration for all providers in designing and delivering 
services. Lightspan does not have a ``one size fits all'' model. For 
example, we are currently working with at least five to seven districts 
in the state of South Carolina alone to identify and define possible 
implementations to meet local needs. We have designed our programs and 
services to meet the rigorous review of each state in the nation. 
Having been approved in 24 states, we would argue we are a proven model 
that should be made available to the students in the remaining 26 
states and territories. Our interest is in working to meet the needs of 
eligible students in the most comprehensive manner possible.
    We are pleased to be offering programs and services in the 
Supplemental Educational Services arena as yet another way in which 
Lightspan may work with school districts to meet the needs of 
underperforming students. As the most frequently used technology-based 
Comprehensive School Reform model in the nation, Lightspan is an 
experienced partner in supporting school improvement. When we depart a 
district after having fulfilled a Supplemental Educational Services 
contract, our tutors leave but our proven, standards-based reading, 
language arts, and mathematics curriculum remains behind as the 
property of the local education agency thus providing an important 
technology resource for continued use in district classroom and by the 
children and families in their homes. Our training models are designed 
to support the classroom teacher in not only providing resources for 
extended learning in the classroom but also extending learning to the 
home. The flexibility of the Lightspan program not only enhances 
afterschool learning programs for students, but also provides important 
instructional tools for teachers for long-term classroom use. Intensive 
tutorial support designed to provide supplemental services support for 
the student, coupled with proven instructional tools and training for 
the classroom teacher, provides the most effective investment in 
quality schools.
                                 ______
                                 
    Mr. DeMint. Thank you, Dr. Jeffrey.
    Let us begin with some questions. I will start back with 
Mrs. Rushing-Jones. You mentioned in your testimony the 
contractors--the test contractors' failure to provide timely 
assessment information, and that is something we have heard a 
lot, that the scores were not available to the district. The 
district could not notify the parents in time. Do you expect 
this to change? Is something being done to make sure that 
scores are available sooner so that parents can have that 
information sooner?
    Mrs. Rushing-Jones. There is always hope, but it does not 
seem that that is going to be likely the situation even next 
year. So we may again be faced with moving forward with 
preliminary school improvement identification and 
implementation accordingly.
    Mr. DeMint. So you do not expect parents to get the 
information until school starts basically?
    Mrs. Rushing-Jones. We send notice to parents based upon 
that preliminary school improvement identification status, and 
that was prior to our test results coming back, and that did 
allow us to notify the parents prior to the beginning of 
school, and parents were able to know that their choice was 
going to be honored even if the school was not identified for 
school improvement in the final school improvement process.
    Mr. DeMint. There seems to be across the state a wide 
variation of how communication about supplemental services are 
actually communicated. Does your department actually meet face-
to-face with parents? How does that work at the school district 
level? How many face-to-face meetings are there with parents 
about the available services, the transportation and those 
types of things?
    Mrs. Rushing-Jones. I can certainly say it has not been 
face-to-face, but I have been on the phone quite a bit and have 
been very willing and happy to talk with any of the parents 
with questions. There has been an interest, of course, and 
interest is continuing to increase from parents because they do 
want the best for their children, and we guide them through 
what choices they do have within each individual school 
district because each options of course are different.
    Mr. DeMint. Well how would a parent determine whether to 
call the school district or to call you about that? I mean is 
that something they--do they give up on the school district and 
call the state directly or do they start with you? How does 
that work?
    Mrs. Rushing-Jones. They start initially with the school 
district because the district is the one sending them the 
letter notice.
    Mr. DeMint. Right. Is your telephone number on that letter 
generally, do you know?
    Mrs. Rushing-Jones. It is not.
    Mr. DeMint. OK. So they have to kind of work to find out 
how to get in touch with you on that?
    Mrs. Rushing-Jones. My number is pretty well known.
    Mr. DeMint. OK.
    Mrs. Rushing-Jones. But you are right. It is a district 
component because it is communicated within each district.
    Mr. DeMint. OK. Did the--the test contractors, have they 
told you they cannot do it next year, but they can improve it 
the year after or is it a matter of when the state actually 
administers the test or when the different school districts 
administer the tests?
    Ms. Lindsay. I can answer that question.
    Mrs. Rushing-Jones. Is it appropriate that she answers the 
question?
    Mr. DeMint. If you do not mind submitting that just for the 
record, any clarification just in writing, that would be 
wonderful.
    Dr. Harner, let me switch the questioning here. Over the 
last couple of years Title I funding in the Greenville County 
schools has increased almost $6 million, from $6.7 million in 
the 2001 year to about 12.5 million now. Yet, I think in your 
testimony the suggestion is there is really not enough Title I 
funding to make this choice and supplemental services work 
effectively. If you could just address that, because part of 
this whole No Child Left Behind came with large increases in 
funding to the state and local school districts, and we want to 
make sure it is getting to the right place and that it is 
really happening.
    The second part of that question does go back to how Title 
I dollars move with the students, and you said again in your 
testimony that the Title I dollars do not go with the student. 
Yet my understanding is, unless the school does not qualify for 
Title I funds, and that would mean they have what, less than 10 
students? How many schools could that apply to in effect? Let 
us just talk a little about Title I, the total increases and 
how the money moves around.
    Dr. Harner. Currently, sir, this past year we had about a 
32 percent increase, which was one of the large--of the large 
districts in the country, I think we had the greatest increase 
this past year. So we are very grateful for that money. A lot 
of that money has to be kept in escrow for school choice, and 
we have about 2 million--a little bit over $2 million in escrow 
that we cannot spend, that we are given, but we cannot spend it 
until the end of the year because it is held in escrow because 
of the provisions of the regulation, which kind of does not 
make sense. It does not make a lot of sense.
    The other thing is, you are looking for solutions, you are 
not looking for bandaids. We have IDEA and Title I, you should 
be looking at it hand and glove. In Greenville County we have 
over 10,500 students that are special-need students. About half 
of them are learning disabled. In other words, we did not get 
them early enough into the system, like in the 4-K program, 
which we are gradually getting fixed, and we have probably one 
of the best 4-K programs in the country, but it is all through 
special-revenue dollars provided by the state and state 
resources. But if we can get that flexibility in Title I into 
the 4-K area and do a lot of work--we tried that and--we did 
that last year, as a matter of fact, for funding for a program 
here of special-need students in this school.
    Mr. DeMint. You are combining IDEA and Title I, but I need 
to understand what we need to fix about the law.
    Dr. Harner. OK, what you need to fix about the--one is--in 
the current Title I provision is giving the superintendents the 
flexibility--boards the flexibility of having the money travel 
with the student to their receiving school. That has got to be 
a priority--a top priority.
    Mr. DeMint. I understand that that happens unless the 
receiving school just does not qualify.
    Dr. Harner. Correct. And I believe that like Riverside 
Middle, the population there is about 9 percent--nine percent 
poverty. So they were not even close to getting anything 
substantial from the state or from the Federal Government.
    Mr. DeMint. The Title I dollars can help with the 
transportation.
    Dr. Harner. That is all they provide for.
    Mr. DeMint. Right.
    Dr. Harner. They do not help for the remediation of the 
student, bringing that student up to where they need to be.
    Mr. DeMint. Do you know how many schools that you have that 
would qualify for the choice--the transfer that do not qualify 
for Title I?
    Dr. Harner. Oh, all of them--all of them. We have 
Armstrong, Brushy Creek, Lake Forest, Bethel, Oakview, all 
outstanding schools, and five--four of the five are excellent 
schools on the state report card. These are great schools and--
    Mr. DeMint. And they do not qualify for Title I funding?
    Dr. Harner. Correct, sir.
    Mr. DeMint. OK.
    Dr. Jeffrey, just a quick question. South Carolina. I just 
need to get your impression of the cooperation that you are 
getting from school districts in our state as far as providing 
supplemental services, getting information out to parents. 
Again, it sounds like there is a lot of variation when 
supplemental services, or the choice programs came up in 
Charleston and hundreds of parents attended an information 
meeting and in Greenville only a few. I do not know if it is 
the difference in the--I cannot imagine that much difference in 
Charleston and Greenville on the issue, so there must be 
something about the information, the way we communicate, or 
generally how the school districts are cooperating with 
providers like yourself. What is your impression of South 
Carolina and how South Carolina as a state is working with 
providers for supplemental services?
    Ms. Jeffrey. First of all, I think the state department in 
California has been exceptional in terms of communicating 
information to school districts about supplemental services.
    Mr. DeMint. That is California?
    Dr. Jeffrey. Did I say California? I am sorry. We are based 
in California. The state of South Carolina, excuse me, has been 
exceptional. They have communicated exceedingly in terms of 
telling school districts about the availability of providers, 
etc. So looking at that on a national basis, I think South 
Carolina has been truly exceptional.
    In terms of school districts it does vary from district to 
district in terms of how they communicate with parents and the 
communication we have, you know, coming from the school 
district to us. And I think a lot of it has to do with how it 
is being implemented in the local area. It has to do with the 
number of schools perhaps that qualify, the number of students 
that they are going to be serving, etc. So it varies from 
location to location, that is true.
    Mr. DeMint. Let me just jump back to Dr. Harner. One of the 
things I have heard, Dr. Harner, is--I guess Greenville as a 
larger school district, perhaps has more of the capabilities to 
offer some of these supplemental services internally. One of 
the things that we want to happen from this bill is for parents 
to have a lot of choices. Could you tell me what the, I guess 
perspective of the Greenville County School District is toward 
outside supplemental services and the cooperation with those 
services to make sure parents know about them, and how are we 
doing that? How are we making parents aware of the different 
services that might be available versus the services you might 
offer internally that are supplemental?
    Dr. Harner. Right now we are partners with Dr. Jeffrey's 
program. We have four of our schools right now, Parker Middle, 
Lakeview Middle, Hollis and Monaview that have students 
enrolled with their programs. Also with the Learning Academy, 
and then we have a lot of our own school--after-school programs 
that provide services. We also have the 21st Century grant, as 
you remember.
    Mr. DeMint. Right.
    Dr. Harner. You helped bring the resources to do that here 
and it is partnering with the communities and schools and the 
Urban League.
    Mr. DeMint. Excellent. I will yield to my colleague for 
some additional questions.
    Mr. Carter. Thank you, Mr. Chairman. I appreciate that.
    Mrs. Rushing-Jones, you said something that from where I 
come from registers with me. The litigation issues you talked 
about and the providing of facilities to after-school for the 
supplemental learning. Expand upon that a little bit more. Tell 
me, are most of the schools not willing to provide onsite 
supplemental learning? Is that a problem in South Carolina?
    Mrs. Rushing-Jones. As I was sharing, last year we only had 
one instance where that was a problem and we were able to work 
with the provider to help them find a facility-owned site. This 
year we have not heard it to be an issue yet, except Greenville 
I recently learned and we may be just starting to face this 
issue. I think it is something we are probably going to have to 
work through with our application process a little better next 
year. It is not a requirement that a district allow the 
provider to be onsite according to the new guidance issued from 
the U.S. Department of Education. However, of course, we 
encourage them to partner with them, and the guidance does also 
allow for the district to charge rent on the space or on 
equipment.
    Mr. Carter. So that is not an issue then? You are allowing 
onsite--these folks to come onsite in most instances?
    Mrs. Rushing-Jones. Some districts are and some are not.
    Mr. Carter. All right. And are they--are you asking as part 
of their contract that they have liability insurance to cover 
the schools if they are onsite?
    Mrs. Rushing-Jones. That is correct.
    Mr. Carter. Is this individual school board rulings that 
say we are not going to allow our schools to be used after 
regular hours for any purposes? Is that what you are running 
into?
    Mrs. Rushing-Jones. As I said, this is a new situation for 
us, and at this point it does seem to be a board policy 
situation.
    Mr. Carter. You know, the targeted students that we are 
talking about here, they are generally going to have 
transportation problems. Would you agree with me on that?
    Mrs. Rushing-Jones. Correct.
    Mr. Carter. And so if you are going to make them go to 
somebody else's site after they leave school, they are going to 
really have a hard time getting there. Mom and dad are probably 
off doing something else and that means once again we are back 
to transportation problems for the school if they have to go 
offsite or they just do not go, right? Would you agree with 
that?
    Mrs. Rushing-Jones. That is true. And if we can assist 
those providers in finding a facility that is near the school, 
then I think that would be to their advantage.
    Mr. Carter. From where I have been for the last 20 years, I 
get a little irritated sometimes with litigation issues driving 
policy, but they do drive an awful lot of policy in this 
country. I believe you also said that with this 20 percent you 
cannot--it is hard to calculate how you will divide that up, 
because you first have to look at the transportation, is that 
right?
    Mrs. Rushing-Jones. That is correct, because both 
supplemental services and choice being within that 20 percent, 
you almost need to know what is going to happen to the choice 
transportation first to find out how much is going to be 
available for the supplemental services.
    Mr. Carter. And that all relates back again to our test 
scores not coming in on time, so you really do not know to 
crunch your numbers early, right, otherwise you would know?
    Mrs. Rushing-Jones. It does make a difference. With our 
preliminary school improvement identification process it seemed 
to work well getting that notice out to parents and being able 
to move forward with parental notice prior to the beginning of 
school.
    Mr. Carter. OK. Well, thank you.
    Mr. Harner, let me--Dr. Harner, let me ask you some 
questions.
    Dr. Harner. Yes, sir.
    Mr. Carter. Curiosity. You said that all of your middle 
schools or at least many of your middle schools had very--or 
your schools had very high pre-SAT scores or some type of 
testing scores, but did not do well on AYP, is that right?
    Dr. Harner. Yes, sir.
    Mr. Carter. What is the explanation for that? Is the AYP 
evaluation wrong?
    Dr. Harner. It is a very high standard, sir. You have--some 
of our schools probably had 28 subgroups, 21 was our district 
average for subgroups that had to make it, and if any one of 
the subgroups did not make it--it could be just one subgroup--
the whole school does not make AYP. So you have the average--
for example, Brushy Creek was 21 subgroups and they made it, 
all 21 subgroups. You go to Riverside Middle where a lot of 
these students--poverty is a subgroup, and we are transporting 
a lot of the students, say to Riverside Middle. Fifty students, 
new students this year, 55 to Northwood Middle, you have to 
have 40, I believe is the number, to have a subgroup, enough 
students in a subgroup to have that considered. So we have just 
moved the poverty line up a lot higher at those schools and 
they are going to have more subgroups to deal with than they 
might not have had at the higher end schools.
    Mr. Carter. So by the very process we are creating new 
subgroups?
    Dr. Harner. Yes, sir--in schools.
    Mr. Carter. In schools.
    Dr. Harner. By moving them from one part of the county to 
the other.
    Mr. Carter. What do you see as the solution to this 
problem, or do you have one?
    Dr. Harner. Well one--off of Congressman DeMint's question, 
the answer is flexibility--in the short-term flexibility of 
funding, so the Title I dollars can go to assist those students 
in the receiving schools so we can get that right.
    Mr. Carter. Clearly that is one of the things that--
    Dr. Harner. That is one of the major solutions.
    Mr. Carter. Mr. Waggoner, you have actually been through 
the process. First, how did you learn about it--about this 
choice for your child?
    Mr. Waggoner. Well, believe it or not, it was from a lady 
in the newspaper, Cindy Landrum, called--
    Mr. Carter. Called you up? That lady called you up?
    Mr. Waggoner. --and she said what do you think about the 
fact that you would get three choices for your daughter to go 
instead of Hollis Elementary.
    Mr. Carter. Well do you feel like that you should have 
gotten a quicker choice--quicker information on that from the 
school?
    Mr. Waggoner. Well, that would not have hurt at all, but I 
will preface that with we did have enough time.
    Mr. Carter. OK.
    Mr. Waggoner. So that was a--and one of the schools just 
jumped out at us and we went up and checked the school out and 
talked with the teachers, even Mrs. Coggins, the principal, 
wonderful. The academic level was outstanding and the school 
itself was beautiful. My daughter thrived there.
    Mr. Carter. Did you ever have to make any of these 
telephone calls either to the district or to the state about 
trying to get further information?
    Mr. Waggoner. No, we did not. Just like the open house, we 
found about it from Cindy, and when we went, Mrs. Coggins said, 
``Gee, your invitation or announcement came back to us in the 
mail.'' We said, OK. So we are not really sure what does get 
missed, but we are out of the loop in some of the things.
    Mr. Carter. Back when I was a kid, they used to send those 
home with the students, which is about the world's worst way to 
get information about PTA out.
    Mr. Waggoner. Yes.
    [Laughter.]
    Mr. Carter. I do not think I ever delivered one in the 
entire history of my public school.
    [Laughter.]
    Mr. Waggoner. We did ask that they might be able to give it 
to our daughter and thought better of that, too.
    One other thing I did have in my statement that I did not 
enumerate on, if you want to call it that. It says, Jessie 
needed help in math. She did get tutoring twice a week for 
quite a while from some students at Furman and Mrs. Baker, her 
teacher. And one of the things, when you guys were bringing up 
transportation, the student does not have to go off campus in 
order to have a transportation problem. She stayed an extra 
half an hour in school she missed her bus. So twice a week we 
went up and got her regardless. It was not a far distance, it 
was not even a time crunch most of the time from--that I get 
out of class early enough or whatever. But that can be a 
problem and it might need to be addressed if the students are 
trying to take advantage of any of these extracurricular 
learning concepts.
    Mr. Carter. Well, you know, one of the key problems you 
have got in dealing with kids at all--you know, I raised four 
of them, more or less grown, and I have got one son who is a 
teacher and a coach. Definitely the teachers and the 
administrators have got more than they can say grace over to do 
at these schools. There is no doubt about that. And 
transportation, when you hold a kid after school, then how do 
you get them home when their mom and dad are both working is a 
problem for schools too, and I understand that. I would just 
encourage all of you to think outside the box and encourage us 
to think outside the box as to how we solve these problems. 
Whether maybe this tutoring goes on as part of the ongoing 
classroom day. I know that there are schools that have done 
that, where the kids actually go off to resource classes as a 
portion of each day. I do not know whether that has been tried 
in this area or not, but that is something I will throw out for 
you.
    Thank you. That is all I have, Mr. Chairman.
    Mr. DeMint. OK. I know this sounds like an inquisition, and 
I really do think that the school districts and the state 
department have responded well to a lot of changes in the last 
couple of years. I think as we see these changes, certainly 
there are administrative burdens. I am particularly proud of 
Dr. Harner. You and the school district have done a lot to 
facilitate this, and as you said before, I mean you were very 
choice minded well before No Child Left Behind and the state 
had really set the pace for testing and to try to get better 
information to parents. But as Mr. Carter just mentioned, the 
willingness to look at this program, make it better, create 
opportunities, it does seem that supplemental services could 
perhaps become part of the day. If you have got a child who has 
difficulty reading or difficulty with math, the willingness of 
school districts to--and schools to accommodate various 
services, whether they are provided by the district or not 
onsite seems to be a key element. I know apparently that is 
something that right now Greenville School District does not 
allow someone like Lightspan to operate within the facilities 
of the school. As a matter of fact, I understand, Dr. Jeffrey, 
that Lightspan has pulled out of Greenville County School 
District because of a lack of access to the facilities 
themselves. So it may not have been--word might not have gotten 
back to you.
    Is this something, Dr. Harner, that we could help with from 
a legislative side? Is it a liability issue or is it just a--
what is the reason that outside supplemental services are not 
allowed to operate inside the school?
    Dr. Harner. Congressman DeMint, I think you have asked the 
right questions and have gotten the answers from Mrs. Rushing-
Jones about liability issues, and you have already stated that 
you understand that. Once we get through that hurdle, we will 
be able to bring in more opportunities to our students.
    Mr. DeMint. OK, that is good.
    Let me ask each panelist if you have got a one or 2-minute 
statement, maybe something you did not get to say that you 
think is important for us to take back to Washington. Again, 
the intent of this is for us to continue to improve the 
legislation, the regulation and to try to identify best 
practices as well as problems as we go along so that we can be 
a partner at the Federal level with what is going on at the 
state and local level. So one or 2 minutes at most.
    We will start with you, Mrs. Rushing-Jones.
    Mrs. Rushing-Jones. I would like to clarify one issue 
concerning Title I. Getting money from Washington and the 
concentration of funds, that is more tied, I think, to the 
district. So actually the lowest poverty percent that you can 
utilize for a school to be eligible is 35 percent poverty. So 
the schools that we need to address, if the funds are to be 
transferred to ineligible Title I schools will be 35 percent 
poverty and less. If you could look at that.
    Mr. DeMint. Good.
    Mrs. Rushing-Jones. Also, the set aside requirement, which 
I think Dr. Harner referred to as the escrow amount that the 
district has to hold back within that 20 percent for choice and 
supplemental services is a concern issue, because of the fact 
that they can not pull those monies out to use for funding 
additional schools or other services until possibly November. 
However, you can look at some other fund sources to generate 
that 20 percent amount. But with that money sitting there in 
reserve and not being able to be used for a period of time by a 
district, they also possibly are going to run into a problem 
with meeting that 15 percent carry over limit requirement 
within the Title I legislation. So that is a major concern for 
many of our districts. We would appreciate that being 
addressed.
    Mr. DeMint. An excellent point.
    Dr. Harner.
    Dr. Harner. First off, thank you very much for coming and 
picking Greenville County schools, and here at Brushy Creek, 
for your Committee hearing.
    A short answer to the question, the No Child Left Behind 
Act and the regulations are a moving target, sir, and they come 
out. And as they did last year, June a year ago, the beginning 
of June, and the reporter called because there's new 
legislation just announced, regulations, district, what are you 
going to do? Called some parents, and that is how the parents 
found out. Within 2 weeks or 3 weeks, we had notice out. So we 
had notice out to parents for June for the next fall, and then 
we refined it one more time in July. So we are there. I would 
say go the distance with No Child Left Behind Act, but listen 
to the educators and the parents that are out there that are in 
the process and they have to lead a process. Give the 
leadership, the superintendents, principals, the flexibility 
and decisionmaking and encourage them to go forward with that.
    Thank you for being here today.
    Mr. Waggoner. I will just pass, and say thank you so much 
for the opportunity to be here.
    Mr. DeMint. Thank you. Dr. Jeffrey.
    Dr. Jeffrey. I think two points. First of all, we are 
approved in 24 states and we just are looking forward to being 
approved in the remaining 26 states, 26 locations. It is a 
consistent approval process from state to state that I think we 
would like to see.
    The second thing is, while Greenville--we are not offering 
it in the school--the school facilities, we are looking at 
providing it in alternative locations. We are looking at trying 
to build partnerships with local community-based organizations, 
faith-based organizations, etc. to be able to offer the 
services, the supplemental services. So we are a flexible model 
and look at all alternatives in terms of delivery.
    Mr. DeMint. Wonderful. Again, I want to thank all of our 
witnesses. I would like to recognize a couple of folks.
    Oh, you would like to say something.
    Mr. Carter. I would just like to close out by saying thank 
you for such nice hospitality. And if there is any way this--
you thought this felt like an inquisition, it certainly was not 
intended to be that way. I personally--my personal view of 
education is that the folks on the ground have better knowledge 
of how this works. And so as you come up with fresh ideas, I 
would love to be able to stand up in Texas and say here is a 
plan they came up with in South Carolina to make these services 
reach the students better, and call it the South Carolina plan. 
So I encourage you to do that, to think outside the box, 
because at the local level is where, in my opinion, education 
is best served. So I encourage you to take this framework we 
have created, expand it and make it better. Then you have got 
great representatives that you can inform to help us fix it, if 
we need to fix it, in Washington.
    I thank you for allowing me to be here, and thank you all 
for letting me be a part of this. Thank you, Mr. Chairman.
    Mr. DeMint. Thank you, Mr. Carter.
    I would like to recognize two superintendents from 
Spartanburg, our neighbor, Dr. Darrell Owen and Dr. Jim Ray. If 
either one would like to submit any comments for the record, 
the record is open for 14 days, so we would love to hear 
anything. I am sure, as you sat here you wanted to say a lot of 
things that were not said.
    Also, I would like to recognize Dr. David Church who has 
been a real champion of charter schools in the state. He has 
done a lot to move that choice provision around.
    If there is no further business, this Subcommittee stands 
adjourned.
    [Whereupon, at 11:52 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

   Letter from Dr. Darryl Owings, Superintendent, Spartanburg County 
             School District Six, Submitted for the Record

October 31, 2003

The Honorable Jim DeMint
U.S. House of Representatives
432 Cannon House Office Building
Washington, DC 20515

Dear Congressman DeMint:

    This letter will serve as my written testimony to be included for 
the record for the House Subcommittee on Education Reform, which met at 
Brushy Creek Elementary School on October 20, 2003. I want to thank you 
for the opportunity to submit my testimony.
    There are several flaws with the current No Child Left Behind 
(NCLB) legislation. It is my request that Congress take this matter 
very seriously and try to improve the No Child Left Behind legislation 
in a way that it will improve education and make a positive difference 
for children. I would like to point out several problems with the 
legislation that need to be addressed.
        1. The proficiency level is not equal from state to state. For 
        example, in some states (such as Arkansas), almost all schools 
        and children met Adequate Yearly Progress, and in South 
        Carolina and Florida, very few schools (13-17%) met Adequate 
        Yearly Progress (AYP). In fact, out of 221 middle/junior high 
        schools in South Carolina, not a single school met AYP that had 
        a sub group that included students with disabilities. This is a 
        travesty. It is not a fair assessment and it is not a true 
        measure of education or learning. Frankly, the ``all or none'' 
        concept of NCLB does not make common sense.
        2. Students with disabilities should be allowed to take a test 
        that the IEP committee deems appropriate. It is inconceivable 
        that schools are testing students with severe disabilities with 
        the same test. This is also happening to students that cannot 
        speak English. Currently students are being forced to take a 
        test in English even if they cannot read or speak the language. 
        They are forced to take the test due to meeting the percent 
        tested requirement.
        3. The federal No Child Left Behind legislation requires that 
        100% of the students be at the proficient level by 2014. It is 
        estimated that no district in South Carolina will meet AYP this 
        year with the percent of students at the proficient level at 
        17.6% for English Language Arts and 15.5% proficient for math. 
        As you can see, if no district in our state can meet the 17% 
        and 15% proficiency requirement, it could not be feasible that 
        districts or schools can meet the 100% proficient requirement.
    For a true measure of the educational opportunities for students, 
states should have substantially similar proficiency levels or all 
should take the same nationally normed test.
    The problems pointed out have been presented to parent groups, the 
chamber of commerce and school boards, and the feeling is that this 
legislation is unfair and doesn't make common sense the way it is 
currently written. I know this was not the intent of Congress when they 
passed this legislation.
    At the school and district level, we are left in a state of 
purgatory. Our South Carolina Department of Education tells us they are 
meeting the federal guidelines with their interpretation of No Child 
Left Behind. The United States Department of Education insists that it 
is up to the state to interpret No Child Left Behind, and they will not 
get involved at the state level. At the school level, we are left with 
no one to turn to for help, and frankly, we are caught in the middle of 
political bureaucracy. The federal Department of Education blames the 
State Department of Education and the State Department of Education 
blames the federal Department of Education.
    The current No Child Left Behind act will have a detrimental 
economic impact on South Carolina. I do not believe a company would 
want to bring a business or corporation to a state when no school 
district out of eighty-six met Adequate Yearly Progress. It is not a 
true measure of our educational system.
    We are constantly seeking ways for continuous improvement in our 
school district. We use local money to provide educational 
opportunities for students because it is right for children and it is 
our social and moral responsibility as educators. We are committed to 
leaving no child behind.
    I commend your for your quest for good information from the 
education community. I know this is vital in order for you to make 
informed decisions. I also applaud your efforts to put children and 
their education first.
    Please do not hesitate to call upon me for further clarification of 
any of these points. I would also make myself available to testify on 
the issue of No Child Left Behind at any time.
    Thank you again for allowing me to submit this written testimony 
and I look forward to hearing from you in the future.

Sincerely,

Darryl Owings
Superintendent
Spartanburg County School District Six
Spartanburg, South Carolina
                                 ______
                                 

 Statement of Charles J. Saylors, Representing the South Carolina PTA 
             and the National PTA, Submitted for the Record

    Good Morning. My name is Chuck Saylors and I am the president of 
the South Carolina PTA, which represents close to 150,000 members. I 
also sit on the Board of Directors of National PTA, the country's 
largest child advocacy organization, with over six million members. 
Parents are key stakeholders in the education debate, so I thank you 
for the opportunity to express PTA's perspective on the No Child Left 
Behind Act, with our particular comments on public school choice and 
supplemental services.
    As you know, National PTA was an active participant in the 
reauthorization of the No Child Left Behind Act. We worked particularly 
hard to ensure parent involvement provisions were incorporated 
throughout the law and were pleased that for the first time ever, the 
law includes a definition of parent involvement, which was based on 
PTA's National Standards for Parent and Family Involvement Programs.
    A December 2002 National PTA poll of citizens who voted in the 2002 
midterm elections found that 61 percent of American citizens felt that 
federal spending for education must be increased to fulfill the 
commitments made in the No Child Left Behind Act. Furthermore, 74 
percent felt that the law would not be effective if Congress provided 
less funding than is authorized in the law.
    We have continued to advocate for increased funding for public 
education. PTA members in South Carolina and around the country have 
been active participants in the ``Five Cents Makes Sense for 
Education'' campaign and have asked our representatives in Congress to 
double the federal investment in education. We have consistently 
advocated for public funds for public schools and have continued to 
oppose the diversion of public funds for private schools. National PTA 
has remained vocal in opposing vouchers in the District of Columbia and 
anywhere else publicly funded vouchers have been proposed.
    While the full funding of the No Child Left Behind Act is a 
priority for both South Carolina PTA and National PTA members, the 
school choice provisions outlined in the law are also of specific 
concern. The No Child Left Behind Act requires that children who attend 
schools that have not made adequate yearly progress (AYP) for two 
consecutive years be offered the ability to transfer to another public 
school within the school district. Districts must designate at least 
two schools to which children from these schools can transfer.
    The U.S. Department of Education has determined that student 
capacity cannot be a barrier to these students attending another public 
school, and that even if a school has reached its maximum capacity, 
students from schools that did not meet AYP may still attend. The 
Department of Education has said it expects school districts and states 
to do whatever is necessary, whether by building more schools or by 
hiring additional teachers, in order to create the capacity to 
accommodate every student who wants to attend a particular school.
    This policy has provided great challenges for school districts 
throughout South Carolina. The regulations create a logistical 
nightmare for school districts, one that would be compounded by 
shifting student choices from year to year. In light of a lack of 
funding from the federal government, the Department's consistent 
opposition to federal assistance to states and school districts for 
school construction, and the worsening of state and local budget 
problems stemming from the prolonged economic downturn, school 
districts do not have the necessary funds to hire additional faculty 
members or to expand school buildings.
    If schools are not provided with increased funding to hire new 
teachers to accommodate increased enrollment, then class size 
increases. Teachers are unable to provide students with the individual 
attention and the quality of education that they deserve. Schools are 
unable to purchase additional resources such as textbooks, computers, 
and other related materials that are necessary for providing every 
student with an outstanding education. In addition, even more funding 
must be found to transport students to their new schools, which 
provides an additional financial burden for the school district.
    Parents with children in both rural and urban schools face unique 
challenges. For those in rural areas, the only option is to make 
schools the best possible learning environment with limited tools and 
resources. Public school choice is not an option. Rural schools already 
receive a disproportionately low level of federal funding. Tight school 
budgets are causing many rural school districts to consolidate with 
neighboring districts, leading to the closure of schools that often 
also serve as community centers and increasing the time children spend 
in transit to and from school. For those in urban areas, there is a 
possibility that all schools in the area are labeled failing and again 
there is no alternative for students.
    Although public school choice claims to help the students who 
attend the failing schools, no actions are being taken to help these 
schools improve. Funding should be made available to ensure that each 
classroom has a highly qualified teacher who has the necessary 
resources to ensure that students are successful. We must not neglect 
the failing schools. Instead, we must turn the schools around and help 
them to succeed.
    PTA also has concerns about the supplemental services provision of 
the No Child Left Behind Act. The law requires that Title I schools 
that fail to make AYP for three consecutive years must use their Title 
I funds to provide supplemental educational services, which means 
tutoring or other academic services provided in addition to instruction 
offered during the school day. These services can be provided by 
public, private, nonprofit, or for-profit entities, including religious 
institutions. National PTA believes that providers must demonstrate 
effectiveness, align their content with the school district's standards 
and curriculum, and comply with state, local, and federal health, 
safety, and civil rights laws. All providers should be qualified to 
instruct students in these subject areas. Furthermore, we believe the 
provision should promote school-based tutoring and supplemental 
services, with all funds focused on the most needy children first.
    There is a recent cartoon that shows a teacher looking out onto a 
sea of students. The teacher asks the class, ``What a minute When did 
our class size reach 3,704,552?'' to which a student replies, ``This 
was the only school that wasn't failing, so they transferred all of us 
here.'' Although this cartoon is a bit far-fetched, the theme is clear. 
If we continue to label schools ``failing'' and allow students to 
transfer to so-called ``better'' schools, class size will increase and 
students will not receive the attention and services they need and 
deserve. In order to improve schools, we must increase the federal 
investment in education. If we truly want to leave no child behind, 
then it is our duty to support them.
    The No Child Left Behind Act was meant to reform all schools, for 
all children. Unless states and school districts receive a more 
balanced federal directive in line with the public school choice 
requirements in the statute, other equally important priorities, such 
as teacher training, after-school and summer school tutoring, and 
improved testing and assessment, will have to be severely compromised.
    PTA members in South Carolina and across the country commit 
themselves every day to improving the education of not only our own 
kids, but of all children nationwide. The federal government must make 
that same commitment. Without adequate funding for our schools, many 
children, including our kids in South Carolina, will be left behind.


</pre></body></html>
